U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                     Follow-up Review of the
                Critical Incident Response Plans
                              of the
                United States Attorneys’ Offices

                              January 2007




               Report Number I-2007-001
                               EXECUTIVE DIGEST


Introduction

      Rapid response to critical incidents, including acts of terrorism,
hostage situations, and natural disasters, is an essential function of the
Department of Justice (Department). Critical incident response is also an
integral part of the Department’s strategy for combating terrorism.

      To improve the United States Attorneys’ Offices (USAO) preparedness
to respond to critical incidents, in 1996 the Attorney General directed the
Department to implement the Crisis Management Coordinator (CMC)
Program.

       As part of that program, the Attorney General directed each USAO to
designate an Assistant United States Attorney (AUSA) to serve as the CMC
responsible for developing a critical incident response plan (CIRP) and
making other preparations to ensure that the USAO was ready to respond to
critical incidents. 1 The Criminal Division’s Counterterrorism Section (CTS)
and the Executive Office for United States Attorneys (EOUSA) were assigned
to administer and support the CMC Program and to train the coordinators
designated by the USAOs. 2

      Following the terrorist attacks of September 11, 2001, the need to
respond quickly and effectively to critical incidents was highlighted in both
the Department’s Anti-Terrorism Plan and the National Strategy for
Homeland Security. 3 For USAOs, the quality of that response depends, in




       1 Critical Incident Response Plan, Decision Memorandum to the Attorney General,

May 23, 1996 (signed May 24, 1996),
http://10.173.2.12/usao/eousa/ole/usabook/crit/misc/cirp.htm.

        2 Prior to becoming part of the Criminal Division in December 2002, the CTS was

part of the Terrorism and Violent Crimes Section. On September 28, 2006, the Department
announced that the CTS would become part of the National Security Division established
under the USA Patriot Improvement and Reauthorization Act of 2005 (Pub. L. No. 109-177
(2006)).

       3  Memorandum from the Attorney General to USAOs, “Anti-Terrorism Plan,”
September 17, 2001; National Strategy for Homeland Security, Office of Homeland Security,
July 16, 2002.



U.S. Department of Justice                                                          i
Office of the Inspector General
Evaluation and Inspections Division
large part, on developing and making any necessary revisions to CIRPs and
conducting tabletop or field exercises. 4

      In 2003, the Office of the Inspector General (OIG) reviewed the
Department’s CMC Program to determine whether the USAOs had carried
out the Attorney General’s direction to improve their ability to respond
quickly and appropriately to critical incidents. 5 We found that most USAOs
had not effectively implemented the CMC Program. The USAOs’ CIRPs were
inadequate in scope and content to ensure a quick and appropriate
response to a terrorist attack or other critical incident. Also, the USAOs
generally did not follow the standard crisis preparedness practice of
conducting regular critical incident response exercises.

      In addition, our 2003 review found that the CTS and EOUSA provided
only minimal guidance to the CMCs and did not keep the guidance up to
date as changes in Department and national policy occurred. Further, the
CMCs received only limited training, consisting primarily of two national
conferences held in 1997 and 1999. The CTS provided no further training
until March 2003, when it sponsored a 2-hour videoconference. The CTS
and EOUSA also failed to track, thoroughly review, and file the CIRPs the
USAOs submitted. Our 2003 report contained 10 recommendations aimed
at improving the preparedness of the USAOs to respond to critical incidents.

       The OIG conducted this current follow-up review to examine the
USAOs’ progress since our 2003 report to prepare to respond to critical
incidents. Specifically, we reviewed whether (1) each USAO had a revised
and approved CIRP; (2) each USAO completed the required annual CIRP
exercise and accompanying after-action report; (3) EOUSA and the CTS
provided direction and guidance that assisted USAOs in their efforts to
respond to critical incidents, and (4) other factors affected the USAOs’
ability to prepare to respond to critical incidents

       In this review, we examined 93 revised CIRPs, 89 CIRP evaluations
conducted by expert reviewers, and 101 after-action reports. We
interviewed 10 EOUSA and CTS personnel and the CMCs for the District of
Columbia and the Eastern District of Virginia. We also surveyed 93 CMCs


         4 Tabletop exercises are emergency preparedness drills that are completed in a

conference room setting (not out in the field). Field exercises are emergency preparedness
drills that require more active participation by those engaging in the simulated events.

       5 See the OIG report entitled Review of the Critical Incident Response Plans of the
United States Attorneys’ Offices, I-2004-001, December 2003,
www.usdoj.gov/oig/reports/EOUSA/index.htm.



U.S. Department of Justice                                                              ii
Office of the Inspector General
Evaluation and Inspections Division
and interviewed 7 CMCs whose districts had activated their CIRPs in
response to critical incidents that occurred after our 2003 review.

Results in Brief

      Our review found that, since the OIG’s 2003 report, the USAOs,
EOUSA, and the CTS have taken important steps to improve the USAOs’
preparedness to respond to critical incidents. Yet, while progress has been
made, several areas remain in need of improvement.

       In May 2004, to ensure that the USAOs are prepared to respond to
critical incidents, EOUSA and the CTS directed the USAOs to revise their
individual CIRPs based on a model plan developed by an EOUSA expert
panel. In this follow-up review, we determined that all 93 USAOs complied
with this directive.

       Concurrently, EOUSA and the CTS instructed the USAOs to conduct
tabletop or field exercises to test their revised CIRPs and to complete after-
action reports on the exercises. We found that all 93 USAOs had conducted
at least one exercise and completed an after-action report since April 1,
2004, and 53 had conducted 2 or more exercises between May 2004 and
November 2006. 6

       Additionally, in response to the OIG’s 2003 recommendations, EOUSA
and the CTS: (1) provided training to CMCs on how to prepare effective and
comprehensive CIRPs and develop and conduct exercises; (2) verified USAO
CIRP activities through approximately June 2005; and (3) inserted questions
(performance measures) pertaining to CIRPs into the USAOs’ triennial
operations review process to assess the USAOs’ ability to respond to a
critical incident.

       The value of the actions taken in response to our recommendations
was confirmed by all seven of the USAOs in districts that were significantly
affected by Hurricanes Ivan, Katrina, and Rita, which damaged Gulf Coast
communities in 2004 and 2005. 7 According to one U.S. Attorney,
developing the CIRP and conducting exercises made staff in his office more
effective when a crisis occurred. CMCs from other districts affected by the
hurricanes also said that having conducted CIRP exercises proved

       6 One district had completed a CIRP exercise in April 2004, prior to EOUSA and the
CTS instructing USAOs to conduct such exercises.

       7  See Appendix I for additional discussion of the USAOs’ and EOUSA’s response
efforts during these natural disasters.



U.S. Department of Justice                                                         iii
Office of the Inspector General
Evaluation and Inspections Division
invaluable in producing timely decision making by managerial and
supervisory staff.

       In addition, in the year following the hurricanes, all seven districts
affected by the storms conducted a CIRP exercise.

      Yet, while we found that the USAOs that actually responded to critical
incidents since our last review continued their CIRP activities, the majority
of other USAOs have regressed in their required CIRP activities. In addition,
we found that EOUSA and the CTS are not providing the necessary direction
and support.

       The USAOs, EOUSA, and the CTS have not fully implemented
corrective action in response to the OIG’s 2003 recommendations or the
guidelines subsequently provided in the model plan and the USAOs’ CIRPs. 8
The model plan adopted in May 2004 requires an annual exercise and
completion of an accompanying after-action report. However, in the 3 years
since our December 2003 report, 85 of the USAOs had not performed an
annual CIRP exercise and completed the accompanying after-action report.
Initially, USAOs were responsive to the directives from EOUSA issued
following the OIG’s 2003 report, with 78 districts conducting a CIRP
exercise in 2004. However, only 39 USAOs conducted an exercise in 2005,
and only 45 have already conducted an exercise in 2006 (as of November). 9
Also, EOUSA has not maintained a process to monitor the completion of
exercises or after-action reports, and the USAOs are not utilizing the
capabilities the CTS provided to share lessons learned from exercises or
actual events.

       We also found that three additional improvements are needed. First,
seven CIRPs that EOUSA initially deemed unacceptable were not
subsequently reviewed. The OIG reviewed six of these seven CIRPs and
determined that, in the 24 months since EOUSA found the districts’ CIRPs
deficient, three of the USAOs had not addressed the areas of concern.
Second, we found a significant turnover in the CMC position during the 9
months from October 2005 to July 2006 – an annualized rate of 23
percent. 10 This figure is significantly greater than the 6-percent turnover

       8 The USAOs’ individual CIRPs adopted the language (including guidelines) set forth
in the model plan.

       9 An additional 12 USAOs stated in their survey responses and subsequent e-mails

that they planned to conduct an exercise by the end of the 2006 calendar year.

       10The turnover rate for CMCs was 17 percent over the 9-month period, which if
annualized would be 23 percent.



U.S. Department of Justice                                                          iv
Office of the Inspector General
Evaluation and Inspections Division
rate for AUSAs as a whole in 2005. Turnover among AUSAs serving as
CMCs impairs USAOs’ critical incident response preparedness. Finally, we
found that factors beyond the control of the USAOs, EOUSA, and the CTS
could affect the ability of USAOs to respond to critical incidents. For
example, the USAOs are experiencing continuing budget shortages that
have limited the number of AUSAs on staff, thereby limiting staff availability
for non-prosecutorial functions such as CIRP activities.

       The following sections provide more detail on the efforts by USAOs,
EOUSA, and the CTS since our 2003 report to improve the quality of their
critical incident preparedness. On pages v through viii, we describe the
positive steps taken to prepare USAOs to respond to critical incidents. On
pages viii through xiv, we describe areas where improvements are still
needed.

EOUSA, CTS, and USAO Efforts to Prepare to Respond to Critical
Incidents

       Since the OIG’s 2003 report, the USAOs, EOUSA, and the CTS have
taken positive steps toward ensuring the USAOs are prepared to respond to
critical incidents. Beginning in early 2004 and continuing through October
2005, EOUSA and the CTS collaborated on developing guidance and
training to improve the USAOs’ ability to respond to critical incidents.
These efforts included revising the model CIRP, completing a sample
exercise scenario and after-action template, reviewing each district’s revised
CIRP, and conducting two CMC conferences.

       In the spring of 2004, EOUSA and the CTS brought together a panel
of four experienced CMCs to assess changes made to the model CIRP during
the OIG’s 2003 review and to finalize a revised model CIRP. The revised
model CIRP responded to a primary finding of the OIG’s 2003 report that
only 16 percent of the CIRPs addressed more than half of the critical
functions that a USAO may be required to perform during a critical
incident. 11 The expert panel met several times to complete a draft of the
model plan and worked with EOUSA and the CTS to prepare a training
conference, which was held in March 2004 at the National Advocacy Center
in Columbia, South Carolina. The panel also constructed a sample tabletop
exercise for use at the conference. At the conference, the revised draft was
disseminated, and the attending CMCs reviewed the model plan and

       11 The 2003 review found that only 12 of the 76 CIRPs on file at EOUSA and the
CTS addressed more than half of the 48 critical functions. Just 4 of these 76 addressed all
48 functions. Eleven USAOs simply inserted their name into the prior version of the model
plan.



U.S. Department of Justice                                                            v
Office of the Inspector General
Evaluation and Inspections Division
participated in the exercise and small-group discussions. They also had the
opportunity to critique and suggest improvements in the draft of the revised
model plan. Sixty-one CMCs attended this conference, 49 of whom
remained as their district’s CMC as of July 2006. Following the conference,
the expert panel used the CMCs’ feedback to finalize both the model plan
and sample tabletop exercise.

      In the 2003 report, we documented that since the inception of the
CMC Program in May 1996, the CTS had sponsored only two training
conferences specifically for CMCs (in 1997 and 1999). CTS officials told us
that the Department’s anti-terrorism focus following September 11, 2001,
had precluded additional training sessions for CMCs. Our 2003 report
recommended that training be provided on how to prepare effective and
comprehensive CIRPs. The March 2004 conference was the first training
session held for CMCs since 1999, other than a 2-hour videoconference
conducted in March 2003.

      In May 2004, EOUSA staff administering the CIRP improvements
worked with EOUSA’s Security Programs Staff to have items pertaining to
the CIRP and critical incident preparedness activities added to the triennial
operations reviews of USAOs. The reviews are conducted by EOUSA’s
Evaluation and Review Staff (EARS) and utilize self-assessment checklists,
which are completed by USAO staff. The EOUSA added items to the
checklist addressing whether the district had designated a CMC, revised its
CIRP, conducted the required tabletop or field exercise, and completed the
subsequent after-action report. According to the EARS Director, the goal of
the EARS team during a triennial review is to assess a district’s overall
operations and management and, if particular policies and procedures are
not in place, recommend that they be implemented. These questions were
added to address the OIG’s 2003 recommendation that performance
measures be developed to assess the USAOs’ ability to respond to a critical
incident.

       On May 10, 2004, the final version of the revised model plan was
distributed to all CMCs with instructions to revise their existing CIRPs to
follow the new format and submit them to EOUSA by May 28, 2004. As
EOUSA received revised CIRPs from the USAOs, it forwarded each of them
to one of four members of its expert panel to evaluate for compliance with
the model plan’s requirements. All 93 USAOs eventually revised their
CIRPs.

     In June 2004, the expert panelists began their reviews of the revised
CIRPs using a checklist, which they developed, to evaluate the CIRPs for
completeness and to note any additional comments on how a district should


U.S. Department of Justice                                               vi
Office of the Inspector General
Evaluation and Inspections Division
revise its CIRP. The expert reviewers judged 68 of the revised CIRPs to be
“acceptable” without further modification, while another 14 were “acceptable
with changes.” Only seven of the CIRPs were deemed “unacceptable.” 12
This represents a marked improvement from our 2003 review, which found
that 72 of the 76 CIRPs the OIG analyzed were lacking fundamental
elements of an effective critical incident response that would have rendered
them unacceptable under the current model plan.

       In early July 2004, using the feedback from the CMC participants at
the March conference, EOUSA and the CTS completed the revisions to the
sample tabletop exercise. They also prepared an after-action report
template to assist CMCs in memorializing lessons learned from the exercises
and the need for any changes to their districts’ CIRPs. The sample exercise
and the after-action report template were sent to the CMCs with
instructions to conduct an exercise within 30 days of receiving feedback
from the expert reviewer on their CIRP. The OIG found that 78 districts
conducted a CIRP exercise in 2004. The remaining 15 districts conducted
their first exercise in either 2005 or 2006. Thus, after revising their CIRPs
in 2004 and 2005, all 93 USAOs conducted at least one exercise and
completed an after-action report. 13 In our 2003 review, only 30 of the
81 CMCs who replied to the OIG’s survey stated that their USAOs had
conducted a CIRP exercise in the 7 years after 1996.

      In early 2005, in response to our 2003 recommendations, EOUSA
began the process of monitoring the USAOs’ completion of their CIRP
exercises and after-action reports. However, EOUSA discontinued the effort
in June 2005, just prior to the staff person responsible for the monitoring
transferring to the CTS.

      Also in 2005, the CTS requested and received approval to create a
National Crisis Management Coordinator (National Coordinator) position to
further the critical incident preparedness activities of the USAOs, including
developing the training for the 2005 CMC conference held in October at the
National Advocacy Center. 14 Part of the agenda at the conference was to

       12 The OIG was unable to find documentation for the expert panel’s review of four
CIRPs. These four USAOs reported they never received the evaluator’s comments. The OIG
analyzed these four CIRPs and found they were in compliance with the new model plan.

        13 One district stated it had completed an after-action report for its 2004 exercise

but was unable to locate a copy of the report; EOUSA did not have a copy on file. This
district has not completed a second exercise.

       14   Seventy-five CMCs attended the October 2005 conference, 51 of whom remained
their district’s CMC as of July 2006.



U.S. Department of Justice                                                              vii
Office of the Inspector General
Evaluation and Inspections Division
share the lessons learned by those USAOs whose districts were struck by
hurricanes in 2004 and 2005.

       As part of this current review, the OIG interviewed CMCs from seven
districts who stated in their survey responses that they had activated their
CIRPs in response to hurricanes. At the time of the storms, each of the
seven districts already had its revised CIRP approved. Six of the seven
USAOs had conducted a CIRP exercise prior to the hurricanes striking their
districts. 15

       In these interviews, the CMCs described their efforts both before and
after the storms and commented very positively on the benefits derived from
the response preparation activities. Commenting on the training exercises,
one CMC said, “More than anything else, they provided awareness of the
issues we would be dealing with. These are the people [in other law
enforcement and response agencies that] we are going to be working with,
and people will have already thought through some of these [critical incident
response] issues.” Another CMC said, “It becomes second nature and these
[decisions and activities] would be the type of things that may occur
depending on the issue. It also forced some people to think about what our
role would be depending on the incident.” All seven districts conducted a
CIRP exercise in the calendar year after activating their CIRPs because of
the storms.

       Finally, in response to an OIG recommendation, EOUSA and the CTS
expanded the content on their web sites (both Internet and intranet) to
provide additional information and resources to assist the CMCs in their
efforts to conduct critical incident preparedness activities. During the
course of this review, the CTS significantly increased the information
available to USAOs on its “Docushare” intranet web site.

Areas Where Improvements Are Still Needed

       We found that, after being responsive to the OIG’s 2003
recommendations through approximately June 2005, the USAOs have
regressed in their critical incident preparation activities. Our current review
found that USAOs were not fulfilling the requirement in the revised model
plan for conducting an annual exercise and completing an accompanying
after-action report. We also found that EOUSA and the CTS discontinued
providing direction and support to ensure that USAOs continually prepare

       15  The one district that had not conducted an exercise prior to the hurricane that
struck its district was the Northern District of Florida, which completed its revised CIRP in
June 2004. Hurricane Ivan struck the district in September 2004.



U.S. Department of Justice                                                             viii
Office of the Inspector General
Evaluation and Inspections Division
for critical incidents, in contrast to their efforts following the issuance of our
2003 report.

The USAOs have regressed in their critical incident preparation activities.

      USAOs have not conducted annual CIRP exercises. Pursuant to
the revised model plan, which was adopted by each USAO through its CIRP,
the USAOs were to have conducted a tabletop exercise annually and should
have completed at least three exercises by the end of 2006. While each of
the 93 USAOs has conducted at least 1 exercise since revising its CIRP in
2004, only 16 USAOs are in compliance with annual exercise
requirements. 16 Moreover, we found that only 53 (57 percent) had
conducted at least two exercises during the 2004 to 2006 period. 17 Survey
responses and follow-up correspondence indicated that some of the USAOs’
did not conduct exercises because of difficulty scheduling them in
conjunction with the prosecutorial responsibilities of both the CMC and
other AUSAs in the office. 18

       USAOs have not continued to complete after-action reports. The
rate of completion for after-action reports has decreased significantly since
USAOs conducted their first CIRP exercises. While all but two districts
completed an after-action report for their first exercise, only 24 of the 53 (45
percent) USAOs that conducted multiple CIRP exercises completed after-
action reports for any of their subsequent CIRP exercises. Further, only
eight USAOs completed an exercise and the corresponding after-action
report in each of the three calendar years from 2004 through 2006. Under
the model plan each USAO adopted, the USAOs are to complete after-action
reports after each CIRP exercise or a critical incident. The reports are
intended to memorialize lessons learned and necessary changes to a

       16 Sixteen USAOs had already completed an exercise in each of the 3 years (2004
through 2006); two additional districts had an exercise scheduled to occur prior to the close
of 2006 and, upon completion, would also be in compliance with the model plan’s
requirement.

        17 During this review, the OIG used a broad interpretation of what constituted a

CIRP exercise. For example, the OIG considered it a CIRP exercise if a district participated
in exercises with other federal, state, and local agencies that dealt with critical incident
response, even if the USAOs’ participants were not utilizing the USAO’s CIRP as part of the
exercise. Because one of the most important aspects of critical incident response is
building relationships with other agencies, the OIG believes such activities meet the annual
exercise requirement, especially since these activities encourage the USAOs to attend
exercises in the field rather than relying on tabletop simulations.

       18  Five of the six districts that were affected by the 2005 hurricanes did not conduct
exercises in 2005.



U.S. Department of Justice                                                              ix
Office of the Inspector General
Evaluation and Inspections Division
district’s CIRP. When there is no documentation of previous exercises,
newly appointed CMCs have no records to consult on what activities the
district has engaged in and what lessons should have been learned from
those exercises.

       USAOs have not utilized the information sharing capabilities the
CTS provided. In response to our survey, 52 CMCs stated that they had
never received after-action reports, lessons learned information, or copies of
revised CIRPs from other USAOs, EOUSA, or the CTS. In 2003, we
recommended that EOUSA, in conjunction with the CTS, complete the
development of an intranet site containing information on critical incident
response, including lessons learned, exercise scenarios, and best practices.
In response, EOUSA and the CTS developed a web site to provide USAOs
with access to other USAOs’ CIRPs and after-action reports. Our survey
found that 51 CMCs had visited the site, and 49 of them reported it was
useful in locating critical incident planning information. The remaining 42
CMCs (45 percent) reported they had never visited the web site. The EOUSA
and the CTS designed the intranet to be the primary source of
disseminating information on critical incident response planning. Thus, the
large percentage of CMCs that have not visited the web site indicates CMCs
are not utilizing the lessons learned and other information available to
assist them in their critical incident response preparation.

EOUSA and the CTS have not provided the direction and support needed to
ensure that the USAOs continually prepare for critical incidents.

     EOUSA no longer assists the CTS with the USAOs’ critical incident
response preparation. In April 2005, the CTS created a National
Coordinator position to assist with the CMC Program; by September 2005,
EOUSA had ceased monitoring and ceded all involvement in the USAOs’
preparation activities to the CTS. At that time, the EOUSA staff person
responsible for implementing the OIG’s 2003 recommendations transferred
to the CTS to assist with the Anti-Terrorism Advisory Council Program.
Currently, EOUSA does not have any staff assigned to assist the USAOs
with CIRP-related activities. EOUSA’s diminished role occurred despite the
lack of any change in the responsibilities of either organization pertaining to
the CMC Program.

     In the 1996 decision memorandum implementing the CMC Program,
the Attorney General instructed EOUSA to monitor timely CIRP submissions
and updates, and instructed the CTS, in conjunction with EOUSA, to
develop and ensure training for the CMCs. When the model plan was
revised in 2004, it instructed USAOs to forward their revised CIRPs and



U.S. Department of Justice                                                 x
Office of the Inspector General
Evaluation and Inspections Division
after-action reports to EOUSA. Thus, EOUSA still should have an active
role in providing guidance to the USAOs and monitoring CIRP activities.

     We found that in 2004 and early 2005, EOUSA staff tracked the
USAOs’ completion of the exercises and after-action reports, but those
efforts ceased before all of the USAOs completed their first exercise. EOUSA
and the CTS made no effort to track the completion of a second round of
exercises. Neither EOUSA nor the CTS actively monitored the completion of
exercises or after-action reports since approximately June 2005. Although
the CTS created a National Coordinator position, CTS is not directly or
indirectly involved in overseeing the performance of the USAOs because the
CTS believes such activities fall under the purview of EOUSA. According to
the CTS, its role is providing advice on exercises, policy updates, and
emerging issues regarding critical response preparedness, while EOUSA
handles the administrative functions, such as monitoring the USAOs’
completion of exercises. During the course of this review, however, the OIG
found that EOUSA was no longer performing these administrative functions
for the CMC Program.

      USAOs’ performance measures have been removed. In October
2005, EOUSA removed three questions pertaining to CIRP activities that
had been added to the EARS self-assessment checklist used in EOUSA’s
triennial review of each USAO. According to the EARS Director, questions
pertaining to the designation of a CMC, CIRP exercises, and after-action
reports were dropped in 2005 “to streamline the checklist.” This action was
taken without consulting the CTS. 19

       During this review, the OIG informed the CTS of the questions’
removal, and the CTS subsequently initiated efforts with EOUSA to reinstate
information about CIRP-related activities in the triennial review. On
September 21, 2006, the EARS Director provided the OIG with new
questions that USAOs would be asked about their CIRPs and CMCs as part
of the evaluation process, and the questions addressed each of the items
that had been removed.

       Competing responsibilities have diminished the National
Coordinator’s effectiveness with the CMC Program. The Department has
assigned critical incident planning efforts to the CMC Program’s National
Coordinator, including making him the point person on the Department’s
avian flu response preparation. Most of these efforts are not directly related
to his responsibilities for managing the CMC Program. According to the
CTS, these additional responsibilities have prevented the National

       19   EARS Director, September 21, 2006, e-mail.



U.S. Department of Justice                                               xi
Office of the Inspector General
Evaluation and Inspections Division
Coordinator from completing the CMC Program tasks the CTS originally
envisioned, such as serving as the primary link to the CMCs in the districts
by disseminating policy, training, and exercise information. Also, EOUSA’s
decision to not monitor the USAOs’ CIRP activities significantly limited the
National Coordinator’s awareness of the USAOs’ current critical incident
preparations.

       Because of these additional responsibilities, the National Coordinator
has been unable to maintain an effective dialogue with the CMCs regarding
CIRP-related activities since the October 2005 conference. We found
through our survey that 62 CMCs had never received after-action reports
(from exercises or critical incidents), other lessons learned information, or
copies of revised CIRPs from EOUSA or the CTS. 20 While this information
was made available on the CTS’s intranet, the National Coordinator told the
OIG he intended to communicate with CMCs directly, including providing
information about upcoming exercises in which their districts could
participate.

       Newly appointed CMCs have not received training. In the
9 months after the CMC training conference in October 2005, 16 new CMCs
were appointed and, as of July 2006, had not received any training. 21 Eight
of the 16 indicated they had no critical incident experience prior to
becoming CMCs. In fact, of the current 93 CMCs, 52 stated in their survey
responses that they had no critical incident experience prior to becoming
CMCs, which highlights the need for timely training. 22

       In 2003, the OIG recommended that training and guidance be
provided to the USAOs on CIRP activities. EOUSA and the CTS responded
by conducting the 2004 and 2005 CMC training conferences and developing
the model plan and sample tabletop exercises. However, the lack of training
for recently assigned CMCs demonstrates a need to address the training of
CMCs appointed between conferences, especially given the turnover rate in
the CMC position. Even if EOUSA and the CTS were committed to
conducting annual conferences (no conference will be conducted in 2006),
any CMCs appointed shortly after a conference would go without formal

        20 The 62 CMCs versus the 52 CMCs referenced on page x, is based on the source

of the information being EOUSA and the CTS, and does not include information received
from other USAOs.

       21 Additionally, in response to our survey, several of these new CMCs stated they
did not have the training materials from the 2004 and 2005 CMC conferences.

       22 Three of these new CMCs were designated as “acting” in place of CMCs who had
been called to National Guard duty in Iraq.



U.S. Department of Justice                                                          xii
Office of the Inspector General
Evaluation and Inspections Division
training for nearly 12 months in the absence of readily accessible
orientation materials. While the CTS has significantly increased the
materials available on its intranet site, the OIG did not find specific
orientation materials designed for newly appointed CMCs. Given the
likelihood that newly appointed CMCs do not have prior critical incident
response experience, training materials should be readily available to newly
appointed CMCs to help them function effectively in the position. The
number of newly appointed CMCs also underscores the need to ensure that
each district complete after-action reports in order to provide
documentation for successive CMCs at each USAO.

      Another reason new CMCs do not receive training is that the USAOs
have not alerted EOUSA and the CTS when they appoint new or acting
CMCs. 23 The model plan does not require USAOs to promptly notify EOUSA
or the CTS when there is a change, vacancy, or “acting” appointment to the
CMC position. 24 We found that several districts had not notified the
National Coordinator of CMC appointments, thus delaying the CMCs’
acquisition of the background information they need to perform their role
because they were unaware of where to get the information. During follow-
up correspondence to our survey, four newly appointed CMCs asked the
OIG how to acquire, and where to forward upon completion, materials on
CIRP revisions, exercises, and training, even though the CIRP-related
information is available on the EOUSA intranet. 25 Further, we found that
several districts with CMC vacancies had not designated a replacement
CMC until assigning someone to complete the OIG’s survey.

       EOUSA and the CTS never determined that all 93 CIRPs were
acceptable. We found that the seven CIRPs that the panel of experts
deemed unacceptable were not reviewed again after districts revised and
resubmitted them. CTS officials stated that they did not believe a second
review was necessary because they trusted the USAOs to make the required
revisions. Because there was never a second review of the seven CIRPs,
EOUSA and the CTS could not demonstrate that all USAOs had acceptable
CIRPs. An OIG review of current versions of six of those seven CIRPs found
that not all areas of concern had been addressed in the 24 months since the

        23 The lack of specific personnel assigned to the CIRP program at EOUSA raises the

issue of who at EOUSA USAOs would contact.

       24  The model plan does impose a 6-month revision requirement, and revisions are
to be forwarded to EOUSA and the CTS. Thus, a newly appointed CMC would be denoted
in the revised CIRP.

       25 While the National Coordinator is listed on the web site, instructions on where
(or to whom) to send information to EOUSA were not readily apparent.



U.S. Department of Justice                                                           xiii
Office of the Inspector General
Evaluation and Inspections Division
CIRPs had been found deficient. 26 Of these six districts, three had not
corrected the deficiencies that were the primary reason their CIRPs had
been deemed unacceptable: the lack of contingency plans should one of the
district’s branch offices become unavailable for operations.

Other Factors Affecting the USAOs’ Ability to Prepare to Respond to
Critical Incidents

      During the course of our review, we identified two factors
that are adversely affecting the CMC program: 1) limited budgetary
resources, which are generally outside of the control of the USAOs;
and 2) high turnover among CMCs, which affects the continuity of
CIRP-related activities.

Budget shortages and rescissions have limited the ability of AUSAs to
complete non-prosecutorial functions.

      Budget shortages for the USAOs over the past 4 years (FY 2003 -
FY 2006) have reduced funding available to the USAOs. According to
EOUSA, this has reduced the number of AUSAs, while the USAOs’ workload
has continued to increase. Consequently, according to CMCs, the ability of
AUSAs to complete non-prosecutorial functions, such as CMC duties, has
been restricted. Because of the collateral nature of the CMC position,
reducing the amount of time CMCs dedicate to CIRP-related activities can
have a significant negative impact on a USAO’s ability to prepare for critical
incidents. Further, according to CMCs, AUSAs are evaluated on the
number of prosecutions and not on CMC activities. Thus, AUSAs have less
incentive to focus on CIRP-related activities.

Turnover among AUSAs serving as CMCs adversely affects USAOs’ critical
incident response preparedness.

       The turnover for CMCs since the October 2005 CMC conference has
been much higher than that for AUSAs as a whole. Annualized, the CMCs’
rate of turnover was 23 percent – nearly four times that for AUSAs in 2005.
Coupled with the lack of immediate access to training, high turnover
disrupts the continuity of CMC activities. 27 The turnover rate also



       26 The seventh CIRP was not reviewed because the CMC indicated that the district
planned to make significant changes to it in the immediate future.

       27 The OIG could not research the historical CMC turnover rate because the
information was not available through the USAOs, EOUSA, or the CTS.



U.S. Department of Justice                                                          xiv
Office of the Inspector General
Evaluation and Inspections Division
emphasizes the need for USAOs to keep EOUSA and the CTS aware of
changes in the USAO’s CMC position.

Conclusion and Recommendations

      In response to our 2003 report, EOUSA and the CTS have taken
important steps such as an improved model plan that the USAOs have
adopted, and the completion of exercises on a much more frequent basis
that have improved the USAOs’ critical response preparedness. If pursued,
these efforts can help USAOs respond quickly and appropriately to critical
incidents.

       Yet, despite the initial responsiveness to the OIG’s 2003
recommendations, the efforts of the USAOs, EOUSA, and the CTS have
regressed since June 2005. We found that USAOs have not consistently
completed after-action reports following CIRP exercises or actual critical
events, or forwarded these reports to both EOUSA and the CTS to allow for
lessons learned to be shared. The USAOs also have not consistently notified
EOUSA and the CTS immediately upon a new CMC’s appointment.
Moreover, EOUSA and the CTS need to clarify their responsibilities for the
CMC Program. The CTS, if it is to be the lead component in directing and
supporting the CMCs, needs to provide additional administrative assistance
to the program to (1) ensure that the USAOs are actually conducting the
requisite activities and (2) leverage the lessons learned by each of the
districts as they engage in CIRP exercises and actual events by sharing the
positive and negative experiences with all other USAOs.

       The response by USAOs in the areas affected by the 2004 and 2005
hurricanes demonstrates the value of the critical incident preparations they
undertook beginning in March 2004. However, other USAOs have not
followed the CIRP requirements, nor have EOUSA and the CTS provided the
necessary direction and support to ensure that USAOs continually prepare
for critical incidents.

    In this report, we make seven recommendations to improve the
USAOs’ critical incident response planning. We recommend that:

1. EOUSA and the CTS clarify each component’s CMC Program
   responsibilities.

2. In accordance with guidance provided by EOUSA and the CTS, the
   USAOs conduct exercises of their CIRPs.




U.S. Department of Justice                                             xv
Office of the Inspector General
Evaluation and Inspections Division
3. The USAOs complete, retain, and forward copies of after-action reports
   to EOUSA and the CTS.

4. EOUSA and the CTS establish a system that alerts EOUSA when USAOs
   do not:

       •   Complete required CIRP exercises, and

       •   Submit after-action reports for exercises and CIRP activations.

5. EOUSA ensure that performance measures to monitor completion of
   CIRP exercises and after-action reports remain a part of its triennial
   review process.

6. When vacancies occur in CMC positions (either permanent or
   temporary), the USAOs appoint new CMCs as soon as practicable; the
   USAOs also should notify EOUSA and the CTS immediately of any
   vacancies and subsequent appointments.

7. EOUSA and the CTS ensure that new CMCs receive timely orientation
   and training.




U.S. Department of Justice                                               xvi
Office of the Inspector General
Evaluation and Inspections Division
                                                          TABLE OF CONTENTS


INTRODUCTION...............................................................................................................................................3
    Background ....................................................................................................................................................4
    Purpose, Scope, and Methodology .........................................................................................................13

RESULTS OF THE REVIEW.......................................................................................................................15
        EOUSA and the CTS developed a revised “model plan” that encompassed prior OIG
        recommendations. ................................................................................................................................15
        EOUSA and the CTS provided improved training and guidance to CMCs. ........................16
        EOUSA and the CTS directed the USAOs to revise their CIRPs based on the “model
        plan,” and had the CIRPs reviewed by an expert panel............................................................18
        EOUSA and CTS instructed USAOs to test their revised CIRPs by conducting exercises
        and to complete after-action reports on the results of the exercises. ..................................19
        EOUSA incorporated questions into its triennial reviews of the USAOs to assess the
        USAOs’ ability to respond to a critical incident. .........................................................................20
        EOUSA monitored USAOs’ completion of CIRP activities through approximately June
        2005. .........................................................................................................................................................20
    Since June 2005, the USAOs have regressed in their critical incident preparation activities,
    and EOUSA and the CTS have not continued to provide direction and support to the
    USAOs............................................................................................................................................................22

        The USAOs have not conducted CIRP exercises on an annual basis. .................................22
        USAOs have not continued to complete after-action reports. ................................................25
        USAOs are not utilizing the information-sharing capabilities provided by the CTS. ......26
        EOUSA no longer assists the CTS with the USAOs’ critical incident response
        preparation. ............................................................................................................................................27
        EOUSA removed the USAOs’ performance measures assessing the CIRP Program. ......29
        Competing responsibilities have diminished the National Coordinator’s effectiveness
        with the CMC Program........................................................................................................................29
        EOUSA and the CTS have failed to ensure that newly appointed CMCs have received
        training.....................................................................................................................................................30
        EOUSA and the CTS never ensured that all 93 CIRPs are acceptable. ...............................32
    During the course of our review, we identified two areas that are adversely affecting the
    CMC Program...............................................................................................................................................34

        Budget shortages and rescissions have limited the ability of AUSAs to complete non-
        prosecutorial functions. ......................................................................................................................34
        Turnover among AUSAs serving as CMCs adversely affects USAOs’ critical incident
        response preparedness. ......................................................................................................................34

CONCLUSION AND RECOMMENDATIONS ..........................................................................................35

APPENDIX I: CIRP ACTIVATIONS SINCE OUR 2003 REVIEW..................................................37

APPENDIX II: Survey .................................................................................................................................48

APPENDIX III: EOUSA RESPONSE.........................................................................................................60



U.S. Department of Justice                                                                                                                                     1
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX IV: NSD RESPONSE...............................................................................................................64

APPENDIX V: OIG ANALYSIS of EOUSA and NSD RESPONSE ...................................................67




U.S. Department of Justice                                                                                                        2
Office of the Inspector General
Evaluation and Inspections Division
                                    INTRODUCTION


      In May 1996, the Attorney General directed the Department to
implement a Crisis Management Coordinator (CMC) Program to improve the
USAOs’ preparedness to respond “quickly and appropriately” to critical
incidents. At the heart of the CMC Program implementation was the
requirement that each of the 93 USAOs develop a critical incident response
plan (CIRP). The Attorney General directed that the Counterterrorism
Section (CTS) 28 and the Executive Office for United States Attorneys
(EOUSA) administer and support the CMC Program.

       In 2003, the Office of the Inspector General (OIG) reviewed the CMC
Program. 29 That review found, among other things, that the USAOs’ CIRPs
were inadequate in scope and content and that the USAOs generally had not
followed the standard crisis preparedness practice of conducting regular
critical incident response exercises. The OIG conducted this follow-up
review to examine the USAO’s progress since our 2003 report to prepare to
respond to critical incidents.




       28 In 1996, the units that would become the CTS were part of the Department’s
Terrorism and Violent Crime Section. The CTS was formed in a December 1, 2002
reorganization and placed within the Criminal Division. On September 28, 2006, the
Department announced that the CTS would become part of the National Security Division
established under the USA Patriot Improvement and Reauthorization Act of 2005 (Pub. L.
No. 109-177 (2006)).

       29 See the OIG report entitled Review of the Critical Incident Response Plans of the
United States Attorneys’ Offices, I-2004-001, December 2003,
www.usdoj.gov/oig/reports/plus/e0401/index.htm.



U.S. Department of Justice                                                              3
Office of the Inspector General
Evaluation and Inspections Division
Background

       Responding quickly and                                   Critical Incidents
appropriately when critical                  Critical
                                                    OIGincidents    include
                                                                         critical acts  ofresponse
                                                                                            terrorism,
incidents occur is an essential part        Source:     review of USAOs’          incident
                                             hostage situations, and natural disasters.
                                            plans
of the Department’s mission, as             Typically, these events involve one or more of
well as an integral part of the             the following factors (although the presence of
Department’s strategy for                   one factor by itself does not automatically mean
                                            that an incident is critical):
protecting the nation from
terrorism. Problems encountered             •    Involves threats or acts of violence against
during prior critical incidents –                government or social institutions.
such as the Branch Davidian                 •    Involves significant loss of life, significant
standoff near Waco, Texas, the                   injuries, or significant damage to property.
bombing of the Murrah Federal               •    Demands use of substantial resources.
Building in Oklahoma City, and
                                            •    Attracts close public scrutiny through the
natural disasters like Hurricane                 media.
Andrew – resulted in significant
                                            •    Requires coordination among federal law
congressional and public scrutiny                enforcement agencies (more so than usual),
of the Department’s actions. After-              state or local law enforcement agencies,
action reports on these and other                local or state prosecutors, emergency relief
critical incidents identified serious            services, or emergency response services.
mistakes by the Department in               •    Requires ongoing communication with
areas such as communication and                  upper-level personnel at the Department.
coordination between negotiating            Source: OIG review of USAOs’ critical incident response
and tactical elements, personnel            plans.
availability, crime scene
management and evidence
collection, and use of deadly force.

       Since 1998, at least 11 department and 5 other federal and legislative
initiatives have focused on correcting past deficiencies and improving the
ability of the Department (and other federal agencies) to respond to critical
incidents (Table 1, page 4). Between 1988 and 1996, six initiatives
established requirements for periodic exercises of emergency operating
plans 30 and assigned EOUSA responsibility for overseeing the emergency
preparedness of the USAOs, 31 including developing critical incident
response training. 32


       30   DOJ Order 1900.6A, Department of Justice Crisis Management Plan, 1988.

       31   DOJ Order 1900.5A, National Security Emergency Preparedness Program, 1989.

       32 Memorandum from Merrick Garland, Principal Associate Attorney General, to the
Attorney General, “Attorney Critical Incident Response Group,” January 11, 1996.



U.S. Department of Justice                                                                         4
Office of the Inspector General
Evaluation and Inspections Division
       Federal actions taken between 2001 and 2006 reinforce the fact that
being prepared to respond to critical incidents is one of the Department’s
primary objectives. For example, the Department’s Anti-Terrorism Plan
(2001) and the National Strategy for Homeland Security (2002), two
initiatives implemented to update the Department’s strategic objectives in
the aftermath of the September 2001 terrorist attacks, both identify
responding effectively to critical incidents as one of the Department’s three
major strategic objectives.

       The Department further reinforced the importance of the CMC
Program and CIRPs in its fiscal year (FY) 2003-2008 Strategic Plan, which
stated that “the Department will continue to foster the promulgation and
dissemination of cooperative domestic preparedness initiatives in support of
state and local emergency responders.” 33




       33   Department of Justice, Fiscal Years 2003-2008 Strategic Plan, p. 2.13.



U.S. Department of Justice                                                           5
Office of the Inspector General
Evaluation and Inspections Division
         Table 1: Selected Critical Incidents and Federal Actions, 1988-2003
            INCIDENTS                       DATE                        FEDERAL ACTIONS
                                          Dec 1988     — DOJ Crisis Management Plan
                                                       — DOJ National Security Emergency Preparedness
                                          Oct 1989
                                                        Program
              Ruby Ridge incident —       Aug 1992
                Hurricane Andrew —        Aug 1992
      World Trade Center bombing —        Feb 1993
                                           Feb-Apr
         Branch Davidian standoff —
                                            1993
                                          Apr 1994     — FBI Critical Incident Response Group (CIRG) formed
           Oklahoma City bombing —        April 1995
                                          Jun 1995     — PDD 39, “U.S. Policy on Counterterrorism”
                                                       — Attorney General’s Critical Incident Response Group
                                          Jan 1996
                                                        formed
                                          Mar-Jun
                 Freemen standoff —
                                           1996
                                                       — USAO Crisis Management Coordinator Program
                                          May 1996
                                                        formed
                                          May 1998     — PDD-62, “Protection Against – Unconventional
                                                         Threats to the Homeland and Americans Overseas,”
                                                         issued
    World Trade Center and Pentagon
                                          Sep 2001
                          attacks —
                                          Sep 2001     — DOJ Anti-Terrorism Plan issued
                                          Oct 2001     — Deputy AG issues “Guidance for Anti-Terrorism Task
                                                         Forces”
                                          Oct 2001     — USA Patriot Act passed by Congress
         Anthrax attacks: New York,       Oct 2001
     Washington, D.C., and Florida —
                                          Oct 2001     — Interagency Domestic Terrorism Concept of
                                                          Operations Plan issued
                                          Nov 2001     — Anti-Terrorism Task Forces established in USAOs
                                          Nov 2001     — “Blueprint for Change, A Plan to Reshape the
                                                          Department and Its Components to Focus on Anti-
                                                          Terrorism” issued
                                          Jul 2002     — National Strategy for Homeland Security issued
        Washington, D.C., area sniper
                                          Oct 2002
                        shootings —
                                          Nov 2002     — Criminal Division reorganized
                                          Feb 2003     — Homeland Security Presidential Directive issued
                    Hurricane Ivan —      Sep 2004
                                          May 2005-
            Serial shooter, Arizona —
                                          Aug 2006
                                          Aug 2005-
             Baseline Killer (rapist) —
                                           current
                 Hurricane Katrina —      Sep 2005
                   Hurricane Rita —       Sep 2005
Source: OIG review of department and other documents.




U.S. Department of Justice                                                                     6
Office of the Inspector General
Evaluation and Inspections Division
The CMC Program’s purpose is to improve crisis response.

       Since its inception in 1996, the CMC Program has been designed to
improve the USAOs’ ability to accomplish their statutory responsibilities
while responding quickly and appropriately to critical incidents. 34
Specifically, implementing better planning and preparation for responding to
critical incidents is intended to improve the USAOs’ performance in
providing legal services and following procedures during crises; enhance the
USAOs’ coordination with law enforcement and emergency response
agencies; ensure the identification and organization of resources needed to
respond to a critical incident; and improve the USAOs’ anticipation of likely
crisis situations. 35

       At the direction of the Attorney General, each USAO was to improve
its ability to perform during a critical incident by developing CIRPs. These
CIRPs were to clarify Department-wide notification procedures, district office
resources, headquarters response, and the command and control process
during a critical incident. In addition, the Attorney General directed that
EOUSA and the CTS administer and provide support to the CMC Program.




       34  Each of 93 United States Attorneys (U.S. Attorneys) is the chief federal law
enforcement officer within his or her particular jurisdiction and serves as the principal
litigator under the direction of the Attorney General.

       35 Attorney General’s speech to CMCs at the first national training conference, June
17, 1997, p. 7.



U.S. Department of Justice                                                                  7
Office of the Inspector General
Evaluation and Inspections Division
  The USAOs, CTS, and EOUSA have responsibilities in administering the
  CMC Program.

         Figure 1 shows the offices and divisions involved in the CMC Program.
  Each component has specific responsibilities, which are described in the
  following sections.



                Figure
  Crisis Management      1: CMC Program Offices and Divisions
                    Coordinators


                                        Attorney General



                                   Deputy Attorney General



  Executive Office for the           United States Attorneys                Criminal Division
  United States Attorneys



     Office of Legal Education              Crisis Management            Counterterrorism Section
                                               Coordinators

     Evaluation and Review Staff                                             National Crisis
                                                                         Management Coordinator

     Security Program Staff

Source: Organization charts for the Department of Justice, EOUSA, and Criminal Division.




  U.S. Department of Justice                                                                8
  Office of the Inspector General
  Evaluation and Inspections Division
      U.S. Attorneys. According to the 1996 decision memorandum, in the
event of a critical incident the U.S. Attorney is the on-scene legal decision
maker and is responsible for managing the Department’s response by,
among other things:

       •   Facilitating coordination and communication with federal, state,
           and local officials and prosecutors;
       •   Preparing and securing search warrants;
       •   Assisting law enforcement personnel in interviewing witnesses;
       •   Making legal decisions, such as granting immunity;
       •   Appearing before grand juries; and
       •   Advising law enforcement personnel when necessary on collecting
           and preserving evidence.

      To coordinate and plan each USAO’s response to a critical incident,
the Attorney General directed each U.S. Attorney to select a senior Assistant
U.S. Attorney (AUSA) to be the CMC and directed that at least one AUSA at
each USAO receive crisis response training. The CMC for each USAO was
directed to submit a CIRP to EOUSA describing how the USAO would
manage its responsibilities during a critical incident. The CMCs were also
directed to coordinate the development and implementation of their CIRPs
with appropriate federal, state, and local law enforcement and emergency
response agencies, and participate in crisis response exercises with those
agencies. The CMCs also were responsible for identifying the resources
their USAOs required to respond quickly and appropriately to a critical
incident.

       The CTS and EOUSA. When the CMC Program was implemented in
1996, the Attorney General assigned the CTS to review the CIRPs the
USAOs submitted for content and quality and to provide feedback to each
district. EOUSA was assigned to monitor timely CIRP submission and CIRP
updates. To support the CMC Program, the Attorney General directed the
CTS, in conjunction with EOUSA, to develop and ensure training for the
CMCs. The Attorney General stressed “training and advanced planning are
imperative” given the intense time constraints and public attention during a
critical incident. Specifically, the CTS was to provide CMCs training in:

       •   Coordination with law enforcement and emergency response
           agencies,
       •   Legal and procedural crisis response, and



U.S. Department of Justice                                                  9
Office of the Inspector General
Evaluation and Inspections Division
       •    Specific planning to identify and organize resources and to
            anticipate likely crisis situations.

       The direction for the CTS and EOUSA to develop training was
reiterated on October 21, 1999, 36 and in the Department’s FY 2002
Performance Report:

       In the area of preparation for and response to acts of
       terrorism, the Terrorism and Violent Crime Section [now
       CTS] is responsible for administering the Department’s
       Attorney Critical Incident Response Group and its Crisis
       Management Coordinators program, which involves the
       development of a crisis response plan for each federal
       judicial district and the training of specially selected federal
       prosecutors from the U.S. Attorneys’ offices and the DOJ
       litigating divisions in crisis preparation and response
       techniques. 37

Previous OIG report on USAOs’ CIRPs made 10 recommendations.

      In 2003, the OIG issued a report that reviewed the CMC Program to
determine whether the USAOs improved their ability to respond quickly and
appropriately to critical incidents by developing CIRPs, training staff to carry
out the CIRPs, and exercising their CIRPs. 38 In December 2003, the OIG
reported that most USAOs had not effectively implemented the CMC
Program as required by the Attorney General. That review found that the
USAOs’ CIRPs were inadequate in scope and content to ensure a quick and
appropriate response to a terrorist attack or other critical incident. Also,
the USAOs generally did not follow the standard crisis preparedness
practice of conducting regular critical incident response exercises.

      The OIG review also found that the CTS and EOUSA did not
adequately administer and support the program. The CTS and EOUSA
provided only minimal guidance to the CMCs and did not update the

       36 Memorandum for the Attorney General from the Deputy Attorney General, “U.S.

Attorney’s Offices’ Preparedness to Address Critical Incidents,” October 21, 1999, p. 4.

        37 Department of Justice, FY 2002 Performance Report/FY 2003 Revised Final

Performance Plan/FY 2004 Performance Plan, Strategic Objective & Annual Goal 1.2-1.3:
Investigate and Prosecute Terrorist Acts, p. 3.

       38 See the OIG report entitled Review of the Critical Incident Response Plans of the
United States Attorneys’ Offices, I-2004-001, December 2003,
www.usdoj.gov/oig/reports/plus/e0401/index.htm.



U.S. Department of Justice                                                            10
Office of the Inspector General
Evaluation and Inspections Division
guidance as changes in Department and national policy occurred. Further,
the CMCs received only limited training, consisting primarily of two national
conferences held in 1997 and 1999. The CTS provided no further training
from 1999 until March 2003, when it sponsored a 2-hour videoconference.
The CTS and EOUSA also failed to track, file, and thoroughly review the
CIRPs the USAOs submitted.

     Our December 2003 report contained 10 recommendations aimed at
improving the preparedness of the USAOs to respond to critical incidents.

We recommended that the Deputy Attorney General:

       1. Ensure that performance measures are developed to assess the
          readiness of USAOs to respond to critical incidents.

We recommended that all U.S. Attorneys:

       2. Revise the CIRPs to address the action items identified by the CTS,
          and regularly update the plans to reflect changes in law,
          departmental policy, or local procedures.

       3. Conduct and participate in periodic exercises to test the CIRPs and
          practice responding to critical incidents.

       4. Establish workload-reporting procedures that capture the time
          dedicated to critical incident response planning duties.

We recommended that the Assistant Attorney General, Criminal Division:

       5. Provide updated training and guidance to the USAOs on how to
          prepare effective and comprehensive CIRPs. The guidance should
          reflect changes in legislation, policy, and critical incident response
          practice that have taken place since September 11, 2001.

       6. Review all USAOs’ CIRPs, including revisions, to ensure that the
          CIRPs cover all critical areas; provide individualized feedback to
          USAOs; and periodically report to the Deputy Attorney General on
          the status of the USAOs’ CIRPs.

       7. Provide the USAOs with training and guidance on how to develop
          and conduct appropriate critical incident response exercises, either
          independently or in conjunction with the FBI or other offices.




U.S. Department of Justice                                                 11
Office of the Inspector General
Evaluation and Inspections Division
       8. In conjunction with EOUSA, complete the development of a web
          site containing information on critical incident response, including
          lessons learned, exercise scenarios, and best practices.

We recommended that the Director, EOUSA:

       9.   Establish a system for accurately tracking and reporting the
            status of USAO submissions and updates to CIRPs.

       10. With advice from the CTS, revise the operations review process to
           include a full evaluation of the preparedness of USAOs to
           respond to critical incidents.

       In this report, we discuss the USAOs’, EOUSA’s, and the CTS’s
progress since our 2003 report in improving preparedness to respond to
critical incidents. On pages 13 through 19, we describe the positive steps
taken to prepare USAOs to respond to critical incidents. On pages 20
through 31, we describe areas where improvements by these organizations
are still needed.




U.S. Department of Justice                                                 12
Office of the Inspector General
Evaluation and Inspections Division
Purpose, Scope, and Methodology

       The OIG conducted this follow-up review to examine the USAOs’
efforts to prepare to respond to critical incidents. Specifically, we reviewed
whether (1) each USAO had a revised and approved CIRP; (2) each USAO
had completed the required annual CIRP exercise and accompanying after-
action report; (3) EOUSA and the CTS had provided direction and guidance
that assisted USAOs in their efforts to respond to critical incidents, and
(4) any other factors may impede the USAOs’ ability to prepare to respond to
critical incidents.

       The scope of this review examined the USAOs’, EOUSA’s, and the
CTS’s efforts taken since our December 2003 report to prepare to respond to
critical incidents. In particular, we concentrated on the USAOs’ planning
and preparation for responding to critical incidents and the actions taken by
EOUSA and the CTS to assist the USAOs in those efforts. The fieldwork for
this review was completed from May 2006 to November 2006.

       The methodology used in this review consisted of interviews as well as
document review and analysis. We also we conducted an e-mail survey of
the 93 USAOs and used follow-up correspondence and telephone calls to
clarify survey responses by, and obtain additional information from, CMCs.

       Interviews. To examine the activities of EOUSA, the CTS, and the
USAOs in critical incident preparedness, we interviewed officials from each
of the three entities.

      Interviews with EOUSA personnel. From EOUSA we interviewed the
Director, Acting Deputy Director (former Chief Financial Officer), Chief
Operations Officer (and Acting Chief Information Officer), Director of
Evaluation and Review Staff, the Assistant Director for Security Programs,
and EOUSA Legislative Counsel (who was also the EOUSA Liaison for this
review).

      Interviews with the CTS personnel. From the CTS, we interviewed the
Acting Director, Deputy Chief, National Antiterrorism Advisory Council
Coordinator, and National Crisis Management Coordinator.

       Interviews with USAO personnel. We interviewed current CMCs about
critical incidents that occurred in their districts. We discussed these events
with the following USAOs:

       •   Eastern District of Louisiana (Hurricane Katrina),
       •   Middle District of Louisiana (Hurricane Katrina),


U.S. Department of Justice                                              13
Office of the Inspector General
Evaluation and Inspections Division
       •   Western District of Louisiana (Hurricane Rita),
       •   Southern District of Mississippi (Hurricanes Katrina),
       •   Southern District of Alabama (Hurricane Katrina),
       •   Northern District of Florida (Hurricane Ivan), and
       •   Eastern District of Texas (Hurricane Rita).

      Document review. To determine whether all USAOs had revised and
approved CIRPs on file, had completed the required annual exercises, and
submitted exercise (or critical event) after-action reports, we reviewed and
analyzed all available CIRPs and after-action reports provided by the 93
CMCs. In particular we focused on whether:

       •   Each of the 93 USAOs had provided a CIRP,
       •   The CIRP had been reviewed by an expert reviewer,
       •   A revised CIRP was provided subsequent to the expert’s review,
       •   The CIRP had been exercised, and
       •   The requisite after-action reports had been provided to EOUSA and
           the CTS for exercises or critical events.

       Survey. To address all of our review objectives, we devised a
60-question survey of CMCs using a software package capable of
distributing the survey via e-mail to all 93 CMCs. (See Appendix II for the
questionnaire.) This survey was designed to elicit information on the
following areas:

       •   Background of the CMCs,
       •   CIRP training and guidance,
       •   CIRP planning,
       •   CIRP testing and exercises,
       •   CIRP utilization,
       •   CIRP activation,
       •   CIRP effectiveness and lessons learned, and
       •   Qualitative information on how the CIRP program could be
           improved.

      Survey follow-up. To verify and clarify survey responses from the
CMCs, we contacted 85 CMCs and conducted follow-up interviews via e-mail
and telephone calls. Through these interviews, we also obtained updates on
2006 CIRP exercises scheduled to take place or conducted following the
survey completion date.




U.S. Department of Justice                                              14
Office of the Inspector General
Evaluation and Inspections Division
                             RESULTS OF THE REVIEW


       In response to the OIG’s December 2003 report, USAOs,
       EOUSA, and the CTS have taken positive steps toward
       ensuring that USAOs are prepared to respond to critical
       incidents. Beginning in early 2004 and continuing through
       October 2005, EOUSA and the CTS collaborated on
       activities to improve the USAOs’ ability to respond to
       critical incidents. As their first step, EOUSA and CTS
       developed a revised model plan that addressed OIG
       recommendations. EOUSA and the CTS provided improved
       training and guidance to CMCs, directed USAOs to revise
       their CIRPs based on the model plan, and had the CIRPs
       reviewed by an expert panel. EOUSA and the CTS then
       instructed the USAOs to test their revised CIRPs by
       conducting exercises and to complete after-action reports
       on the results of the exercises.        EOUSA incorporated
       questions into its triennial reviews of the USAOs to assess
       the USAOs’ ability to respond to a critical incident.
       Through approximately June 2005, EOUSA monitored
       USAOs’ completion of CIRP activities. By addressing the
       requirements set forth by EOUSA and the CTS, USAOs have
       improved their ability to respond to critical incidents.


EOUSA and the CTS developed a revised “model plan” that encompassed
prior OIG recommendations.

       In the spring of 2004, EOUSA and the CTS brought together a panel
that included four CMCs experienced in crisis response planning to assess
the changes made to the model plan during the OIG’s 2003 review and to
work with EOUSA and the CTS to further revise the model plan. 39 The five
panelists met several times to complete a revised draft of the model plan.

        The final version of the revised model plan directed USAOs to address
all of the essential functions that should be contained in a CIRP. In
addition, the OIG reviewed all of the comments provided by the expert
reviewers and found that, in those instances where a USAO’s CIRP was not

       39  The panel consisted of five attorneys, four of whom were CMCs. The CMCs were
from Oklahoma, Northern District; Utah; Virginia, Eastern District; and Wisconsin, Eastern
District. The fifth attorney, detailed to the CTS, served as the key drafter of the model plan.


U.S. Department of Justice
Office of the Inspector General                                                         15
Evaluation and Inspections Division
acceptable, the reviewers gave additional direction to ensure compliance
with the model plan’s standards. These actions were responsive to the
OIG’s 2003 finding that EOUSA and the CTS had not provided sufficient
direction to USAOs to develop adequate plans. In the OIG’s 2003 review, we
found that only 12 of the 76 CIRPs on file at EOUSA and the CTS addressed
more than half of the 48 essential functions that a USAO may be required to
perform during a response to a critical incident. Only 4 of the 76 plans
addressed all 48 functions.

      Our side-by-side comparison and analysis of the original and revised
model plans showed significant improvement. The 19-page revised version
is both comprehensive and detailed in its guidance regarding the required
content for a USAO CIRP. It also addresses the OIG’s prior recommendation
to ensure that the CIRPs cover all critical areas by encompassing all 48
essential functions that a USAO may be required to perform during a
response to a critical incident.

EOUSA and the CTS provided improved training and guidance to CMCs.

      In addition to revising the draft model plan, the expert panel worked
with EOUSA and the CTS to prepare the materials for a training conference
held in March 2004 at the National Advocacy Center in Columbia, South
Carolina. The materials included a sample tabletop exercise for use at the
conference.

      At the conference, EOUSA and the CTS distributed the draft of the
revised model plan for review and comment by the CMCs in attendance.
The CMCs also participated in the sample exercise and engaged in small-
group discussions. Following the conference, the expert panel used the
CMCs’ feedback to finalize the model plan and tabletop exercise. Of the 61
CMCs that attended this conference, 49 remained their district’s CMC as of
August 2006.

       In 2005, the CTS requested and received approval to create a National
Crisis Management Coordinator (National Coordinator) position to assist
USAOs with their critical incident preparedness, including developing the
training for the 2005 CMC conference, which took place in October. Part of
the agenda at the conference was to share the lessons learned by those
USAOs whose districts were struck by hurricanes in 2004 and 2005.
Seventy-five CMCs attended the 2005 training conference, 51 of whom
remained their district’s CMC as of August 2006.




U.S. Department of Justice
Office of the Inspector General                                       16
Evaluation and Inspections Division
       Respondents to our survey gave positive feedback on both the 2004
and 2005 CMC training conferences. The CMCs stated that the training
was helpful in understanding the role that USAOs would play in a real
crisis. The CMCs’ positive assessment of the 2004 and 2005 training
conferences was in contrast to the CMCs’ responses during our 2003 review
that training was insufficient. Our 2003 report documented that since the
inception of the CMC program in May 1996, EOUSA and the CTS had
sponsored only two training conferences specifically for CMCs (in 1997 and
1999). From 1999 to the March 2004 conference, the only training session
held for CMCs had been a 2-hour videoconference conducted in March
2003. During that review, the CTS stated that the Department’s anti-
terrorism focus following September 11, 2001, had precluded additional
training sessions for CMCs.

      The materials covered during the 2004 and 2005 CMC conferences
were helpful in understanding the role a USAO would play in a crisis,
according to survey respondents. In contrast, our 2003 review found that
the CMCs’ previous training was narrowly targeted at anti-terrorism issues.
Of the 26 CMCs we interviewed during the 2003 review, 24 identified the
lack of training as the major hurdle they faced in improving their offices’
readiness to respond to a critical incident. Our 2003 report recommended
that EOUSA and the CTS provide regular training for CMCs on how to
prepare effective and comprehensive CIRPs, as well as develop and conduct
appropriate critical incident response exercises.

       Also, in response to an OIG recommendation to complete the
development of a web site containing information on critical incident
response, including lessons learned, exercise scenarios, and best practices,
EOUSA and the CTS each expanded the content of its web sites (both
Internet and intranet). Additionally, during the course of our current
review, the CTS further enhanced the amount of information available on its
intranet site. As of October 2006, the web sites provided additional
information and resources to assist the CMCs in their efforts to conduct
critical incident preparedness activities. The site now includes electronic
copies of the USAOs’ CIRPs, after-action reports, and the initial evaluations
from the expert panel members. It also includes the 2004 and 2005 CMC
training conference materials, as well as sample exercises and updated
policy guidance.




U.S. Department of Justice
Office of the Inspector General                                        17
Evaluation and Inspections Division
EOUSA and the CTS directed the USAOs to revise their CIRPs based on the
“model plan,” and had the CIRPs reviewed by an expert panel.

      On May 10, 2004, EOUSA and the CTS distributed the final version of
the revised model plan to all CMCs, with instructions to revise their existing
CIRPs using the new format and content guidelines in the model plan and
submit them to EOUSA by May 28, 2004. These revisions addressed the
OIG’s prior recommendation that all USAOs revise their CIRPs to address
action items the CTS had identified.

       Upon receipt of the revised CIRP from each district, EOUSA forwarded
it to one of the four members of the expert panel to review for compliance
with the model plan’s requirements. 40 Prior to beginning their review of the
CIRPs, the experts on the panel developed a checklist to ensure that their
reviews were consistent and that all revised CIRPs met the model plan’s
requirements. The checklist allowed reviewers to provide additional
comments on how a district should revise its CIRP in order to be
“acceptable.” This process addressed the OIG’s recommendation that the
CTS review all USAOs’ plans to ensure that the plans cover all critical areas.

      In June 2004, the expert panel began the reviews. They judged 68 of
the revised CIRPs to be acceptable without further modification, while
another 14 were acceptable with changes. The expert panel found only
seven of the CIRPs unacceptable. 41 This represents a marked improvement
from our 2003 review, which found that 72 of the 76 CIRPs the OIG
analyzed lacked fundamental elements of an effective CIRP, which would
have rendered these 72 CIRPs unacceptable based on the requirements
contained in the current model plan.

       As required by EOUSA and the CTS, all 93 USAOs revised their
CIRPs. Eighty-four USAOs submitted their CIRP to EOUSA before the end
of July 2004; four submitted their CIRPs between August and October 2004,
and one CIRP was submitted in October 2005. Sixty-eight of the plans
required no changes or additions. Further, 68 CMCs stated in their survey
responses that after their CIRP was reviewed, they made additional changes
to their CIRPs based on their subsequent experiences with exercises and
critical incidents.

       40   According to CTS officials, only the four CMCs on the panel reviewed CIRPs.

       41 Four USAOs reported they never received the comments from an expert panelist.
The OIG did not find these four evaluations in the EOUSA files; thus, there were only 89
evaluations. Upon request, the OIG received CIRPs from these four USAOs, and our
analysis showed the CIRPs were in compliance with the new model plan.


U.S. Department of Justice
Office of the Inspector General                                                       18
Evaluation and Inspections Division
EOUSA and CTS instructed USAOs to test their revised CIRPs by
conducting exercises and to complete after-action reports on the results of
the exercises.

       In July 2004, using the feedback from the CMC participants at the
March conference, EOUSA and the CTS completed the revisions to the
sample tabletop exercise. They also prepared an after-action report
template to assist CMCs to memorialize lessons learned from the exercises
and the need for any changes to their districts’ CIRPs. The sample exercise
and the after-action report template were sent to the CMCs with
instructions to conduct an exercise (either using the sample or an exercise
of their own choosing) within 30 days of receiving feedback from the expert
reviewer on their CIRP. They were also instructed to forward an after-action
report to EOUSA upon completion of their exercise.

       All 93 USAOs have conducted at least one exercise and completed
an after-action report since revising their CIRP. While not every USAO
completed their exercise within the prescribed 30-day time frame, we did
find that every USAO completed an exercise and an after-action report by
November 2006. Based on the CMCs’ responses to our survey, follow-up
correspondence, and document review, the OIG determined that 78 districts
conducted a CIRP exercise in 2004. The remaining 15 districts conducted
their first exercise in either 2005 or 2006.

       In order to verify their completion and to ascertain the various lessons
learned, the OIG reviewed after-action reports documenting exercises for 91
of the 93 USAOs. Two CMCs stated they had completed after-action reports
for their 2004 exercises but were unable to locate copies of them and
EOUSA did not have copies on file. One of these districts subsequently
completed a second exercise and an after-action report for that exercise but
the district has not yet forwarded a copy. The other district has not
completed a second exercise.

      The majority of USAOs completed multiple CIRP exercises. Fifty-
three USAOs completed exercises in at least 2 of the 3 calendar years (2004-
2006), and 10 additional USAOs told us they planned to conduct an
exercise before the end of the 2006 calendar year. Of the 78 USAOs that
conducted an exercise in 2004, 49 (63 percent) had completed a second
exercise by November 2006, and 8 planned to conduct their second exercise
by the end of 2006. Within the group of 15 that conducted their first
exercise after 2004, 4 USAOs had completed exercises in both 2005 and
2006, and 2 others planned to conduct their second exercise by the end of
2006. This is a marked improvement from the level of performance


U.S. Department of Justice
Office of the Inspector General                                          19
Evaluation and Inspections Division
observed during our 2003 review. In 2003, only 30 of the 81 CMCs who
replied to the OIG’s survey stated that their USAOs had conducted a CIRP
exercise in the 7 years since the inception of the CMC program in 1996.

EOUSA incorporated questions into its triennial reviews of the USAOs to
assess the USAOs’ ability to respond to a critical incident.

       In May 2004, EOUSA staff added questions to the self-assessment
checklist used in the triennial operations reviews of USAOs. The checklist
questions, answered by USAO staff, addressed whether the district
designated a CMC, had an approved CIRP, conducted the required tabletop
or field exercise, and completed the subsequent after-action report. These
questions addressed the OIG’s recommendation that EOUSA revise the
operations review process to include a full evaluation of the USAOs’ CIRP-
related activities. 42 Responses to the questions served as an indicator of
how likely the USAOs would be to respond successfully to a critical incident.

       These triennial reviews are conducted by EOUSA’s Evaluation and
Review Staff (EARS). During the review, the EARS team examines a
district’s overall operations and management. If particular policies and
procedures are not in place, the review team recommends that they be
implemented. 43

EOUSA monitored USAOs’ completion of CIRP activities through
approximately June 2005.

       In response to our 2003 recommendation to accurately track the
status of USAO submissions, in late 2004 EOUSA began monitoring the
USAOs’ submissions of revised CIRPs, completion of their CIRP exercises,
and forwarding of their after-action reports. The process tracked the
completion of the tasks, but did not account for any subsequent revisions to
districts’ CIRPs or additional exercises that USAOs should have conducted
in 2005. EOUSA discontinued the effort in June 2005, just prior to the staff
person responsible for the monitoring transferring to the CTS. According to
EOUSA senior management, it is unclear whether EOUSA has an additional
oversight role regarding the program outside of the EARS reviews. Senior
management felt the EARS reviews would provide the requisite monitoring
of the program.
       42 The additions to the EARS review also addressed the OIG’s recommendation that

the Deputy Attorney General ensure that performance measures be developed to assess the
readiness of USAOs to respond to critical incidents.

       43   Interview with EARS Director, May 24, 2006.


U.S. Department of Justice
Office of the Inspector General                                                  20
Evaluation and Inspections Division
Steps taken by USAOs have had a positive impact on their
preparedness.

       As part of this review, the OIG interviewed CMCs from the seven
districts that indicated in their survey responses that they had activated
their CIRPs in response to a natural disaster. All seven districts had their
revised CIRPs approved prior to the hurricanes that hit the districts. Six of
the seven had conducted a CIRP exercise prior to the storms. 44 Moreover,
all seven districts conducted a CIRP exercise in the calendar year after the
storms.

       During these interviews, the CMCs described their respective districts’
planning efforts before the storms and their recovery efforts after the
storms. They commented very positively on the benefits derived from the
crisis response preparation activities they had previously completed. A
more detailed description of the positive impact of crisis response planning
on these seven districts appears in Appendix I.




       44 The one district that had not conducted an exercise prior to activating its CIRP
because of a hurricane was the Northern District of Florida. However, Hurricane Ivan came
ashore in September 2004, and the Northern District of Florida had completed its revised
CIRP only three months earlier.


U.S. Department of Justice
Office of the Inspector General                                                    21
Evaluation and Inspections Division
       Since June 2005, the USAOs have regressed in their
       critical incident preparation activities, and EOUSA and
       the CTS have not continued to provide direction and
       support to the USAOs. Our current review found that:
       (1) USAOs have not completed CIRP exercises and after-
       action reports on an annual basis as required; (2) USAOs
       are not utilizing the information-sharing capabilities
       provided by the CTS; (3) EOUSA no longer assists the CTS
       with the USAOs’ critical incident response preparation;
       (4) EOUSA removed performance measures assessing the
       CIRP program from its triennial review process; (5)
       competing responsibilities have diminished the National
       Coordinator’s effectiveness with the CMC Program;
       (6) EOUSA and the CTS have failed to ensure that newly
       appointed CMCs receive training; and (7) EOUSA and the
       CTS never ensured that all 93 CIRPs were acceptable.

The USAOs have regressed in their critical incident preparation activities.

       The USAOs have not conducted CIRP exercises on an annual
basis. Our current review found that USAOs are not fulfilling the annual
exercise requirement stipulated in each district’s CIRP. As of November
2006, only 16 USAOs were in compliance with the requirement, having
already completed an exercise in each of the 3 years (2004 to 2006).
Another two districts were potentially in compliance because they had
completed exercises in 2004 and 2005, and had an exercise scheduled prior
to the close of 2006.

       While each of the 93 USAOs has conducted at least 1exercise since
revising its CIRP, we found that only 53 (57 percent) had conducted two or
more exercises during the 2004 to 2006 time period. 45 An additional 10
districts stated that they would attempt to complete their second exercise
prior to the close of the calendar year. Thirty USAOs had only completed
their initial CIRP exercise and had no plans to conduct a second exercise
during the remainder of 2006. 46

      During this review, the OIG used a broad interpretation of what
constituted a CIRP exercise. We considered it a CIRP exercise if the USAO
       45 The 53 districts that conducted at least 2 exercises included the 16 that are in

compliance (and the additional 2 that are potentially in compliance) with the annual
requirement referenced above.

       46   Exercise data are current through November 2006.


U.S. Department of Justice
Office of the Inspector General                                                       22
Evaluation and Inspections Division
participated in exercises with other federal, state, and local agencies that
focused on potential critical incidents, even if the USAOs’ participants were
not implementing or following their CIRP as part of the exercise. In
interviews, CMCs, including the expert panel members, told the review team
that one of the most important aspects of critical incident response is to
know other agencies’ personnel and to build relationships with them.
Therefore, the OIG concluded that it was appropriate to accept such
activities as meeting the model plan’s annual exercise requirement,
especially since these activities encouraged USAOs to attend exercises out
in the field and not simply conduct a tabletop simulation.

      Pursuant to Section 8.2 of the revised model plan, which was adopted
by each USAO through its own CIRP, the USAOs are to conduct a tabletop
exercise annually. To be in compliance with the model plan and their CIRP,
USAOs should have completed at least three CIRP exercises by the end of
2006 (one each calendar year beginning in 2004). 47

      We found that USAOs have regressed in their critical incident
preparations. Although 78 districts conducted a CIRP exercise in 2004, 21
of these 78 have not completed another exercise nor do they plan to conduct
one in the remaining portion of 2006. USAO exercise activity dropped 50
percent in 2005, when only 39 USAOs conducted an exercise. 48 Forty-five
USAOs had conducted an exercise in the first 11 months of 2006. An
additional 12 USAOs stated that they planned to conduct an exercise by the
end of the calendar year. 49 See Table 2.




       47  Most USAOs did not conduct their initial CIRP exercise until August 2004. If one
uses that as the starting point for the 12-month cycle instead of January 1, 2004, the
results of our analysis would change only slightly. Forty-nine districts would have
completed their required second exercise by August 2006 (two exercises within the 24-
month span), while the remaining 44 would not have.

       48 The 39 USAOs include 12 USAOs that completed their first exercise and 27

USAOs that completed a second exercise in 2005. Three USAOs did not complete their first
CIRP exercise until 2006.

       49 The 12 USAOs that planned to complete an exercise prior to the end of the
calendar year, includes the 2 USAOs referenced previously that would come into
compliance with the annual requirement plus an additional 10 USAOs that would be
completing their second exercise.


U.S. Department of Justice
Office of the Inspector General                                                       23
Evaluation and Inspections Division
      Table 2: Number of Districts that Completed CIRP Exercises,
                      Calendar Years 2004-2006

                      Calendar Year           Number of Districts
                      2004                           78
                      2005                           39
                      2006                           45
                      2006 (pending)                 12
                      Source: CMCs’ responses to OIG Survey.

       We also found that 12 USAOs did not conduct an exercise in 2004
despite the review of their CIRPs by an expert panelist in 2004 (the latest
being reviewed on August 5, 2004). These USAOs failed to adhere to
EOUSA’s directive that they conduct a CIRP exercise within 30 days of
receiving their CIRP review from the expert panel. 50 Eleven of these 12
USAOs subsequently conducted their first exercise in 2005 (the latest taking
place in November). The twelfth USAO conducted its first exercise in
January 2006.

      In survey responses and in follow-up correspondence, some CMCs
indicated that exercises were not conducted because of difficulty in
scheduling exercises around the prosecutorial responsibilities of the CMC
and other AUSAs on the critical incident response team (CIRT). In our
review, we found that at least three, and as many as seven, AUSAs in each
USAO have important responsibilities when activating the USAO’s CIRP,
such as “the Criminal Division Chief will provide advice on legal issues
arising at the Command Post and will direct CIRT members to execute
particular assignments.” 51 According to the First Assistant United States
Attorney from one of the districts that responded to an actual critical
incident, all of these CIRT members should participate in exercises to
increase their exposure to issues associated with critical incident response.

      Other survey respondents indicated they conducted only one exercise
because they were unable to coordinate exercises with other federal
agencies in their districts. While multi-agency participation is not a
requirement, these CMCs felt that a CIRP exercise needed the involvement
of other federal law enforcement agencies operating within their district.



       50  One of these 12 USAOs was faced with an actual critical incident in fall 2004;
thus, its completion of their first CIRP exercise in March 2005 is understandable.

       51   Critical Incident Response Plan, Southern District of Alabama, Section 4.3.3.


U.S. Department of Justice
Office of the Inspector General                                                        24
Evaluation and Inspections Division
Because they were unable to arrange the participation of other agencies, the
USAOs decided not to conduct their own exercises.

       In addition, six districts that were affected by the hurricanes in 2005
and activated their CIRPs did not conduct exercises in 2005. If these
districts had scheduled exercises in September 2005 or shortly thereafter,
the exercises would have become unnecessary given their real-life response
efforts.

       USAOs have not continued to complete after-action reports.
Since USAOs conducted their first CIRP exercises and completed the
corresponding after-action reports, the completion rate for after-action
reports for subsequent exercises decreased significantly. All but two
districts completed an after-action report for their first exercise, but only 24
of the 53 USAOs that conducted subsequent CIRP exercises completed
after-action reports. Further, just seven USAOs completed an exercise and
the corresponding after-action report in each of the three calendar years,
2004 through 2006. See Table 3.

   Table 3: Number of Districts that Completed After-action Reports
                    After Conducting Exercises,
                     Calendar Years 2004-2006

             Calendar        Districts         After-action       Percentage
               Year         Completing           Reports          Completing
                             Exercises         Completed           Reports
             2004               78                  76               97%
             2005               39                  23               59%a
             2006               45                  26               58%b
             Source: CMC’s Responses to OIG Survey.

             a If the 12 districts that completed their first exercise in 2005
             are removed, the after-action report completion rate for those
             conducting a second exercise falls to 12 out of 27 (44%).

             b If the 3 districts that completed their first exercise in 2006 are
             removed, the after-action report completion rate for those
             conducting second (or third) exercises falls to 23 out of 42 (55%).

       Under the plans created by USAOs pursuant to the model plan, they
are to complete after-action reports after each CIRP exercise or after a
critical incident. The reports are designed to memorialize lessons learned
and denote necessary changes to a district’s CIRP based on exercises or
critical incidents.


U.S. Department of Justice
Office of the Inspector General                                                     25
Evaluation and Inspections Division
      One USAO that participated in several exercises in preparation for a
National Special Security Event did not complete an after-action report (or
written documentation of any kind) for those exercises. 52 The USAO stated
that the exercises were discussed by senior staff, but any comments or
lessons learned were never committed to writing. However, when there is no
documentation of previous exercises, newly appointed CMCs have no
records to consult on what activities the district has engaged in and what
lessons should have been learned from those events or exercises.

       In contrast to the lack of after-action reports generated by the district
referenced above, the Northern District of Alabama produced a report
following its response to an investigation of church fires led by the Bureau
of Alcohol, Tobacco, Firearms and Explosives (ATF). The report provides
lessons learned that could benefit any district:

       As ATF was the lead agency, we should have established a
       closer working relationship with the ATF case agent sooner than
       we did. We should have asked ATF earlier to provide us with a
       computer that had internet and email access. While we were
       able to maintain contact through the agent’s email service, this
       was inconvenient and time consuming due to the agent’s other
       priorities.

       Cell phone communication was very difficult [in the area] for all
       agencies. Also, [as] there was no phone line available for
       dialup, it was necessary to communicate over the ATF email
       system with the USAO. Also, we were not able to access
       Westlaw, although we could have used ATF desktops had one
       been available.

       USAOs are not utilizing the information-sharing capabilities
provided by the CTS. In response to our survey, 52 CMCs stated that they
had never received after-action reports, lessons learned information, or
copies of revised CIRPs from other USAOs, EOUSA, or the CTS. In our 2003
review, we recommended that EOUSA, in conjunction with the CTS,
complete the development of an intranet site containing information on
critical incident response, including lessons learned, exercise scenarios, and
best practices. In response, EOUSA and the CTS developed a web site to
provide USAOs with access to such information, including other USAOs’
CIRPs and after-action reports.

       52   Examples of National Special Security Events include the Olympics, national
political conventions, Super Bowls, and presidential inaugurations.


U.S. Department of Justice
Office of the Inspector General                                                      26
Evaluation and Inspections Division
       Despite the availability of the information, our survey found that 42
CMCs (45 percent) had never visited the web site. The large percentage of
CMCs that have not visited the web site indicates CMCs are not utilizing the
lessons learned and other information available to assist them in their
critical incident response preparation. This lack of use is troubling given
that, of the 51 CMCs who had visited the site, 49 found it useful in locating
critical incident planning information. 53

      Also in response to our survey, 30 CMCs stated that information they
had received from EOUSA, the CTS, or from other USAOs was relevant and
helpful for critical incident planning and was incorporated into their
CIRPs. 54 Moreover, after our current review began, the CTS further
enhanced its intranet and now includes electronic copies of the USAOs’
CIRPs, after-action reports, and the initial evaluations from the expert panel
members. It also includes the 2004 and 2005 CMC training conference
materials, as well as sample exercises and other updated policy guidance.
To maximize the benefit of the site, USAOs need to complete the required
exercises and after-action reports so that their lessons learned can be of use
to other districts.

EOUSA and the CTS are not providing the direction and support needed to
ensure that the USAOs continually prepare for critical incidents.

       EOUSA no longer assists the CTS with the USAOs’ critical
incident response preparation. EOUSA has ceded all involvement in the
USAOs’ critical incident preparation activities to the CTS despite there
having been no change in the responsibilities of either organization
regarding the CMC Program. When the CTS created a National Coordinator
position to assist with the CMC Program in April 2005, and the EOUSA staff
member responsible for implementing the recommendations in the OIG’s
2003 report transferred to the CTS in September 2005, EOUSA ceased
monitoring the USAOs’ CIRP-related activities. Currently, EOUSA has no
staff assigned to formally assist the USAOs with CIRP-related activities.




       53 Data based on responses to OIG survey question 18. CMCs may have visited the

web site before the additional information was recently added; thus, they responded that
they had visited the web site and found it useful but still had not received any after-action
reports, lessons learned information, or copies of revised CIRPs.

       54   Based on responses to OIG survey questions 56.


U.S. Department of Justice
Office of the Inspector General                                                        27
Evaluation and Inspections Division
      When the CMC Program was implemented in October 1996, EOUSA
was assigned to monitor timely CIRP submissions and updates. 55 To
support the CMC Program, the Attorney General instructed the CTS, in
conjunction with EOUSA, to develop and ensure training for the CMCs. The
Attorney General stressed “training and advanced planning are imperative”
given the intense time pressures and public attention during a critical
incident.

       When the model plan was revised in 2004, both EOUSA and the CTS
envisioned that EOUSA would still be engaged in an active role, including
providing guidance to (and monitoring) the USAOs’ CIRP activities. The
model plan states that USAOs should forward their revised CIRPs and after-
action reports to EOUSA. In 2004 and early 2005, after EOUSA and the
CTS directed the USAOs to revise their CIRPs and conduct the first of what
were to be annual exercises, staff responsible for the CIRP program at
EOUSA tracked the USAOs’ completion of the exercises and after-action
reports. 56 However, these tracking efforts ceased around June 2005. At
that time, all but five USAOs had completed their first exercise. 57 Based on
the documents used to track the USAOs’ performance of CIRP activities,
there was no attempt by EOUSA to monitor the completion of a second
exercise by the USAOs or the accompanying after-action reports. In
interviews with EOUSA and CTS personnel, we learned that neither
component has actively monitored the completion of the CIRP exercises or
after-action reports since approximately June 2005.

     Although the CTS created a National Coordinator position, the CTS is
not directly or indirectly involved in overseeing the performance of the
USAOs. CTS officials told us that they believe such activities fall under the
purview of EOUSA. According to the CTS, its role is to provide advice on
exercises, policy updates, and emerging issues regarding critical response
preparedness, while EOUSA handles the administrative functions (e.g.,
monitoring when the USAOs complete exercises). During the course of this
review, however, the OIG found that EOUSA was no longer performing these


       55 Critical Incident Response Plan, Decision Memorandum from Principal Associate

Attorney General to the Attorney General, May 23, 1996 (signed May 24, 1996).

       56 The staff used a table to track when each USAO’s revised CIRP was received;

which expert panelist completed the review; and whether the district had completed the
CIRP exercise and forwarded its after-action report to EOUSA.

       57 The last USAO to complete its first CIRP exercise under its revised CIRP did so on
June 7, 2006.


U.S. Department of Justice
Office of the Inspector General                                                      28
Evaluation and Inspections Division
administrative functions for the CMC Program. For example, EOUSA did
not have copies of all districts’ after-action reports.

       EOUSA removed the USAOs’ performance measures assessing the
CIRP Program. In October 2005, EOUSA removed three questions
pertaining to CIRP activities that had been added to the EARS self-
assessment checklist used in EOUSA’s triennial review process of each
USAO. 58 According to the EARS Director, the questions were dropped in
2005 “to streamline the checklist.” This action was taken without
consulting the CTS. 59 After the questions were removed, EOUSA and the
CTS had no method of gauging the USAOs’ performance of CIRP-related
activities since EOUSA had stopped its monitoring efforts in June 2005.

       During this review, the OIG informed the CTS of the questions’
removal, and the CTS subsequently initiated efforts with EOUSA to reinstate
the information about CIRP-related activities into the triennial review. On
September 21, 2006, the EARS Director provided the OIG with new
questions that USAOs would be asked about their CIRPs and CMCs as part
of the evaluation process, and the questions addressed each of the items
that had been removed.

       Competing responsibilities have diminished the National
Coordinator’s effectiveness with the CMC Program. In April 2005, the
CTS created a CMC National Coordinator position with the intent that the
individual would be primarily responsible for identifying and providing
resources to the CMCs in the districts. 60 This information was to include
upcoming exercises in which USAOs could participate and best practices
identified in after-action reports. However, due to the National
Coordinator’s expertise in other critical response areas, he has been
assigned to other Department work groups and task forces that have
reduced his support to the CMC Program. We found through our survey
that 62 CMCs had never received after-action reports (from exercises or
critical incidents), other lessons learned information, or copies of revised

        58 These checklist questions were: (1) Has the USAO designated a Crisis

Management Coordinator? (2) Has the District conducted either a tabletop exercise of their
Critical Incident Response Plan or exercised their plan in a full field exercise in the District
or Region? When? (3) Did the USAO provide an After-action Report of the exercise to
EOUSA and the CTS?

       59   EARS Director, September 21, 2006, e-mail.

       60 The CTS filled the National Coordinator position with a First Assistant United
States Attorney on temporary detail from a USAO.


U.S. Department of Justice
Office of the Inspector General                                                          29
Evaluation and Inspections Division
CIRPs from EOUSA or the CTS. 61 While the information was made available
on the CTS’s intranet, the National Coordinator told the OIG he intended to
communicate with CMCs directly.

       The CTS originally envisioned that the National Coordinator, who had
been one of the four expert panelists who evaluated the CIRPs, would serve
as the primary link to the CMCs by disseminating policy, training, and
exercise information. The National Coordinator would also be involved in
creating training materials and information for the CMC Program web site.
These tasks were contained in our 2003 recommendation that the CTS
provide updated guidance reflecting changes in legislation, policy, and
critical incident response practice.

       Since arriving at the CTS, the National Coordinator has also been
assigned by the Department to other critical incident planning efforts,
primarily serving as the Department’s point person on the multi-agency
avian flu planning committee. Most of these efforts are not directly related
to his responsibilities for managing and guiding the CMC Program. For
example, the National Coordinator became one of the principal drafters of
the Homeland Security Council’s National Strategy for Pandemic Influenza,
work that demanded a significant amount of his time. According to the
CTS, these additional responsibilities have prevented the National
Coordinator from fully completing many of the CMC Program tasks, such as
keeping the CMCs aware of exercises that were being conducted by other
local, state, and federal law enforcement agencies in their districts so that
the USAOs could participate.

      EOUSA, meanwhile, has not provided support needed by the National
Coordinator. The National Coordinator’s effectiveness has been diminished
by EOUSA’s decision to not monitor the USAOs’ CIRP activities. EOUSA’s
abandonment of its activities significantly limits the National Coordinator’s
access to information on the USAOs’ current critical incident preparations.

       EOUSA and the CTS have failed to ensure that newly appointed
CMCs have received training. In the 9 months between the last CMC
training conference in October 2005 and July 2006, 16 new CMCs were
appointed and, as of October 2006, had yet to receive any formal training.
Eight of the 16 newly appointed CMCs indicated they had no prior critical
incident experience. Further, of all the current CMCs, 52 indicated in their

       61  The 62 CMCs versus the 52 CMCs referenced on page 24, is based on the source
of the information being EOUSA and the CTS, and does not include information received
from other USAOs.


U.S. Department of Justice
Office of the Inspector General                                                  30
Evaluation and Inspections Division
survey responses that they had had no critical incident experience prior to
becoming a CMC. Three of the new CMCs were designated as “acting” in the
place of CMCs who had been called to National Guard duty in Iraq, but the
other new appointees were permanent. Additionally, in response to our
survey, several of these new CMCs stated they did not have the training
materials from the 2004 and 2005 CMC conferences. 62

      In 2003, the OIG recommended that training and guidance be
provided to the USAOs on CIRP activities. EOUSA and the CTS responded
by conducting the 2004 and 2005 conferences and developing new guidance
materials (the model plan and sample tabletop exercises). While a
conference was not held in 2006, CTS officials stated they are scheduling
one for 2007. Forty-six of the 93 CMCs stated that the conferences should
be held on an annual basis, while an additional 34 believed the conferences
should be held on a biannual basis. However, the CMCs also stated that
due to scheduling and resource demands on AUSAs, it may not be practical
to hold an annual conference.

       Moreover, even if an annual conference were possible, some CMCs
could be appointed shortly after the conference and go without training for
up to 12 months in the absence of readily accessible orientation materials.
We believe that there is a need to address the orientation of CMCs appointed
to the position between training conferences, especially given the high
turnover in the CMC position (discussed further on page 32 of this report).
While the CTS has significantly increased the materials available on its
intranet web site, the OIG did not find orientation materials designed for
newly appointed CMCs. Further, the OIG’s review found that the training
and other CIRP-related materials currently available on the intranet lack
basic guidance for newly appointed CMCs who enter the position without
prior critical incident response experience. Basic orientation materials
would enable CMCs to more quickly understand the expectations and
responsibilities of the position and to apply the advanced guidance on the
web site. The number of newly appointed CMCs also underscores the need
to ensure that each district complete after-action reports to provide
historical information for successive CMCs at each USAO.

    Another reason new CMCs do not receive timely training is that the
USAOs have not alerted EOUSA and the CTS when they appoint new or



       62   The materials from both conferences were recently uploaded to the CTS intranet.




U.S. Department of Justice
Office of the Inspector General                                                      31
Evaluation and Inspections Division
acting CMCs. 63 We found that several districts had not notified the National
Coordinator at the CTS of their CMC’s appointment, thus delaying the
CMCs’ obtaining the necessary background information to perform their
role. During follow-up correspondence to our survey, four newly appointed
CMCs asked the OIG how to acquire, and where to forward upon
completion, materials on CIRP revisions, exercises, and training, even
though the CIRP-related information is available on the EOUSA intranet. 64
Further, we found that several districts with CMC vacancies had not
designated a replacement CMC prior to assigning someone to complete the
OIG’s survey. The model plan does not currently impose a requirement that
USAOs promptly notify EOUSA or the CTS when there is a change, vacancy,
or “acting” appointment to the CMC position. 65

       EOUSA and the CTS never ensured that all 93 CIRPs are
acceptable. We found that the seven CIRPs that the expert reviewers did
not deem fully acceptable were not reviewed again to ensure that
deficiencies were addressed. Similarly, the 14 CIRPs found upon initial
review to be “acceptable with changes” were not subsequently reviewed to
ensure that deficiencies were addressed. Our 2003 recommendation stated
that all USAO CIRPs should be reviewed, including revisions. CTS officials
told the OIG that they did not believe a second review was necessary
because they trusted the USAOs would make the required revisions.
Because there was never a second review of the 21 CIRPs, EOUSA and the
CTS could not demonstrate at the time of our review that these CIRPs were
acceptable.

      An OIG review of current versions of the seven CIRPs previously
deemed “unacceptable” found that the areas of concern had not all been
addressed in the 24 months since the CIRPs had been found deficient. As
part of this review, the OIG requested the most recent versions of the CIRPs
from six of the seven districts that had submitted unacceptable CIRPs. 66 Of
these six districts, three had not yet corrected the deficiencies that were the

       63 The lack of specific personnel assigned to the CIRP program at EOUSA raises the
issue of who at EOUSA the USAOs would contact.

       64 While the National Coordinator is listed on the web site, instructions on where
(or to whom) to send information to EOUSA were not readily apparent.

       65 The model plan does impose a 6-month revision requirement and revisions are to

be forwarded to EOUSA and the CTS.

       66  The seventh CIRP was not reviewed because the CMC had already indicated that
the district was planning to make significant changes to it in the immediate future.


U.S. Department of Justice
Office of the Inspector General                                                      32
Evaluation and Inspections Division
primary reasons their CIRPs had been deemed unacceptable. In all three of
these cases, the districts had not revised their CIRPs to provide for
contingency plans if one of the districts’ branch offices were to become
unavailable for operations. The OIG conducted telephone interviews with
the CMCs in these three districts. The CMCs acknowledged the need to
make the suggested revisions and stated that the changes would be made
promptly. After the interviews, one of the three districts forwarded to the
OIG a revised CIRP that included the changes prescribed by the expert
reviewer.




U.S. Department of Justice
Office of the Inspector General                                       33
Evaluation and Inspections Division
       During the course of our review, we identified two areas
       that are adversely affecting the CMC Program: 1) limited
       budgetary resources, which are generally outside of the
       control of the USAOs; and 2) high turnover among CMCs,
       which affects the continuity of CIRP-related activities.

Budget shortages and rescissions have limited the ability of AUSAs to
complete non-prosecutorial functions.

      Budget shortages for the USAOs over the past 4 years (FY 2003 -
FY 2006) have reduced funding available to the USAOs. According to
EOUSA, this has reduced the number of AUSAs, while the USAOs’ workload
has continued to increase. Consequently, according to CMCs, the ability of
AUSAs to complete non-prosecutorial functions, such as CMC duties, has
been restricted. Because of the collateral nature of the CMC position,
reducing the amount of time CMCs dedicate to CIRP-related activities can
have a significant negative impact on a USAO’s ability to prepare for critical
incidents. Further, according to CMCs, AUSAs are evaluated on the
number of prosecutions and not on CMC activities. Thus, AUSAs have less
incentive to focus on CIRP-related activities.

Turnover among AUSAs serving as CMCs adversely affects USAOs’ critical
incident response preparedness.

       The turnover for CMCs since the October 2005 CMC conference has
been much higher than that for AUSAs as a whole. Annualized, the CMCs’
rate of turnover was 23 percent – nearly four times that for AUSAs in 2005.
Coupled with the lack of immediate access to training, high turnover
disrupts the continuity of CMC activities. 67 The turnover rate also
emphasizes the need for USAOs to keep EOUSA and the CTS aware of
changes in the USAO’s CMC position.




       67 The OIG could not research the historical CMC turnover rate because the
information was not available through the USAOs, EOUSA, or the CTS.


U.S. Department of Justice
Office of the Inspector General                                                     34
Evaluation and Inspections Division
                   CONCLUSION AND RECOMMENDATIONS


      In response to our 2003 report, EOUSA and the CTS have taken
important steps such as an improved model plan that the USAOs have
adopted, and the completion of exercises on a much more frequent basis
that have improved the USAOs’ critical response preparedness. If pursued,
these efforts can help USAOs respond quickly and appropriately to critical
incidents.

       Yet, despite the initial responsiveness to the OIG’s 2003
recommendations, the efforts of the USAOs, EOUSA, and the CTS have
regressed since June 2005. We found that USAOs have not consistently
completed after-action reports following CIRP exercises or actual critical
events, or forwarded these reports to both EOUSA and the CTS to allow for
lessons learned to be shared. The USAOs also have not consistently notified
EOUSA and the CTS immediately upon a new CMC’s appointment.
Moreover, EOUSA and the CTS need to clarify their responsibilities for the
CMC Program. The CTS, if it is to be the lead component in directing and
supporting the CMCs, needs to provide additional administrative assistance
to the program to (1) ensure that the USAOs are actually conducting the
requisite activities and (2) leverage the lessons learned by each of the
districts as they engage in CIRP exercises and actual events by sharing the
positive and negative experiences with all other USAOs.

       The response by USAOs in the areas affected by the 2004 and 2005
hurricanes demonstrates the value of the critical incident preparations they
undertook beginning in March 2004. However, other USAOs have not
followed the CIRP requirements, nor have EOUSA and the CTS provided the
necessary direction and support to ensure that USAOs continually prepare
for critical incidents.

    In this report, we make seven recommendations to improve the
USAOs’ critical incident response planning. We recommend that:

1. EOUSA and the CTS clarify each component’s CMC Program
   responsibilities.

2. In accordance with guidance provided by EOUSA and the CTS, the
   USAOs conduct exercises of their CIRPs.

3. The USAOs complete, retain, and forward copies of after-action reports
   to EOUSA and the CTS.


U.S. Department of Justice
Office of the Inspector General                                        35
Evaluation and Inspections Division
4. EOUSA and the CTS establish a system that alerts EOUSA when USAOs
   do not:

       •   Complete required CIRP exercises, and

       •   Submit after-action reports for exercises and CIRP activations.

5. EOUSA ensure that performance measures to monitor completion of
   CIRP exercises and after-action reports remain a part of its triennial
   review process.

6. When vacancies occur in CMC positions (either permanent or
   temporary), the USAOs appoint new CMCs as soon as practicable; the
   USAOs also should notify EOUSA and the CTS immediately of any
   vacancies and subsequent appointments.

7. EOUSA and the CTS ensure that new CMCs receive timely orientation
   and training.




U.S. Department of Justice
Office of the Inspector General                                          36
Evaluation and Inspections Division
       APPENDIX I: CIRP ACTIVATIONS SINCE OUR 2003 REVIEW


       In responding to our survey, seven USAOs reported that they had
activated their CIRP in response to a natural disaster. The OIG interviewed
the CMCs from those districts, and the United States Attorney for one of the
districts, to learn about their USAOs’ planning efforts before the storms and
their recovery efforts afterwards. The CMCs commented very positively on
the benefits derived from the crisis response preparation activities they had
previously completed. The following sections provide the salient portions of
the interviews the OIG conducted and contain brief descriptions of the
critical incidents causing the CIRP activation, the activities each USAO
undertook, and how well the CMCs believed CIRP activities had prepared
the districts for the critical incident.

Hurricane Katrina

      Four districts were hit by Hurricane Katrina in 2005, the costliest and
one of the deadliest hurricanes in the history of the United States. Katrina
caused devastation along much of the north-central Gulf Coast 100 miles
from the storm’s center. The effects were catastrophic in New Orleans and
in coastal Mississippi. In response to this hurricane, the Middle and
Eastern Districts of Louisiana, Southern District of Alabama, and Southern
District of Mississippi activated their CIRPs.

Middle District of Louisiana

      Headquartered in Baton Rouge, the USAO for the Middle District of
Louisiana had an approved CIRP and had exercised its CIRP once prior to
Hurricane Katrina.

       According to the U.S. Attorney for the district, the USAO’s immediate
goal after Katrina was to get the criminal justice system functioning. The
district’s CIRP stipulated that contact be established with the FBI and other
federal agencies, and that teams were to be assigned to cover federal law
enforcement agencies, the courts, and the FBI command center. For the
USAO’s Criminal Division to function properly, it had to maintain
communications with the U.S. Marshals Service. It also needed to process
anyone who was arrested and protect arrestees’ constitutional rights to
allow for successful future prosecution. In addition, based upon the
potential for criminal activity, the USAO researched legal issues such as the
Insurrection Act, determining whether Louisiana had a martial law statute
(which it did not), and under what circumstances federal officers may


U.S. Department of Justice
Office of the Inspector General                                         37
Evaluation and Inspections Division
enforce state laws. To this end, the USAO worked with the state Attorney
General and the Louisiana National Guard General Counsel to authorize the
National Guard to use force to enforce state laws.

       The U.S. Attorney said that his district’s CIRP did not address a
number of issues prior to Katrina that proved to be important. USAO staff
conducted considerable research, while other personnel were actively
involved in response efforts out of the office. Based upon the district’s
experience, the U.S. Attorney said he now believes that other USAOs can
benefit from what was learned. “A week after the storm, I knew a lot more
than I knew before,” he said. The U.S. Attorney stated that USAOs need to
be more familiar with certain response-related issues, and the USAO is
working with the National Advocacy Center to provide all USAOs with
materials on topics such as Emergency Support Function #13 (ESF-13), 68
Title 10 versus Title 32 troops, 69 the Insurrection Act, the Stafford Act, and
regulations and policies regarding reimbursement for local and state
agencies’ personnel.

       The U.S. Attorney stated that the USAO had made several
improvements to its CIRP based on the district’s Katrina experience.
Because he and his staff concluded that they needed better and additional
communications with state authorities, the USAO has acquired radios that
interface with the state’s communication network. According to the U.S.
Attorney, the satellite phones the USAO had at the time of the storm were
not functional, and direct connect phones functioned much better. The U.S.
Attorney added that in future critical incidents he would want multiple
communications platforms because he could not be sure which system
would work under various circumstances.



       68  According to the CMC National Coordinator, ESF-13 is part of the Department of
Homeland Security’s National Response Plan. ESF-13, which addresses law enforcement,
public safety, and security, details how the federal government uses its assets to assist in
response efforts. ESF-13 would help state and local officials in obtaining federal law
enforcement personnel to provide law enforcement services (non-investigative).

        69 According to the CMC, the statutes governing the activation of National Guard

units fall under Title 10 and Title 32 of the United States Code. Units activated for Title 32
missions come under the command of a state’s governor. Additionally, Section 502(f) of Title
32 allows the National Guard to be called up for federal service, while remaining under the
control of the governor. Title 10 allows for a call to active duty for national service in
missions funded by the federal government. Under Title 10, the units serve under the
command of the National Command Authority (the President and Secretary of Defense) and
receive all of the rights and benefits of active national service.


U.S. Department of Justice
Office of the Inspector General                                                        38
Evaluation and Inspections Division
       Due to problems locating USAO personnel in the immediate aftermath
of the storm, the U.S. Attorney also noted that the USAO has now provided
employees with EOUSA’s emergency contact information and web site
address. Thus, any district employee can call in and let EOUSA know
where the employee is located. Employees have submitted additional
contact information to the USAO so they can be more readily located after a
disaster.

       The U.S. Attorney also said that the state has a tendency to
immediately set up multiple command posts, which the USAO has to
identify and with which the USAO must coordinate. During Katrina, the
Sheriff and the State Police set up different command posts. 70 It was not
until the Law Enforcement Coordination Center was set up that response
efforts became more coordinated. The U.S. Attorney stated that the Law
Enforcement Command Center needed to be established faster. “It was
pretty chaotic until we got that set up,” he said.

       According to the U.S. Attorney, the value of the CIRP and the
exercises was that they required the USAO’s staff to think about what they
had to accomplish if a crisis occurred. He stated that an important
emphasis in the plan was to keep in contact with the courts and judges.
Because of the CIRP, the USAO had a plan in place for doing that. Further,
because the USAO had exercised its CIRP, it had the advantage of “lessons
learned” and the time to think about what needed to be in place during a
critical incident and how to get things up and running quickly.

Eastern District of Louisiana

       The USAO for the Eastern District of Louisiana is headquartered in
New Orleans. It had an approved CIRP and had exercised that CIRP once
prior to Hurricane Katrina.

      According to the district’s CMC, due to the mandatory evacuation of
New Orleans, the USAO’s initial priority after Katrina was to re-establish
contact with the USAO’s staff. The EOUSA executive staff and the FBI
helped to locate USAO staff that were unaccounted for in the days following
the storm. This allowed the USAO to focus on other things such as looting,
violence, and other the criminal activity after Katrina. The USAO worked
very closely with the agencies temporarily located at the Joint Operations
Center, which became the Law Enforcement Coordination Center.


       70   The state has not yet addressed the issue, according to the U.S. Attorney.


U.S. Department of Justice
Office of the Inspector General                                                          39
Evaluation and Inspections Division
       The CMC said that his district’s CIRP did not specifically address a
number of legal issues that arose that proved to be important. With reports
of different police agencies seizing guns, the USAO reminded the agencies
that “the Second Amendment had not been suspended.” Legal guidance
was also required on different types of arrests and screening decisions on
prosecutorial matters.

       The USAO needed to coordinate with EOUSA and the Department’s
Office of Legislative Affairs on conducting initial appearance pre-trial
hearings out of the district. Federal legislation was passed allowing the
Eastern District hearings to take place in the neighboring Middle District of
Louisiana (Baton Rouge). The significance of the out-of-district hearings
was that they were being used for the first time, and the authorization for
them needed to be established. Also, 2 days after the storm, the USAO in
the Eastern District successfully petitioned the courts to temporarily
suspend the applicability of the speedy trial statute because the courts were
likely to be closed for a significant period of time.

      According to the CMC, having an approved CIRP and exercising the
CIRP proved to have been very valuable in allowing an effective response,
including timely decision making by managerial and supervisory staff. The
CMC said the lessons learned from Katrina included a recognition that the
CIRP needed to address more than just terrorist incidents. Previously, the
USAO looked at its role during a critical incident as supportive of the FBI
and Joint Terrorism Task Force and local law enforcement. To perform this
function, the USAO’s teams were geared to respond to a criminal incident
and assigned to focus on either warrants or appellate briefs. Now, teams
are designed to work more broadly with state law enforcement, the
Louisiana National Guard, and other federal agencies as events require. The
CMC also stated that the USAO’s alternative work sites had been
inappropriate because they were all within the city, and that they were
designating different sites if needed for future incidents.

Southern District of Alabama

      Headquartered in Mobile, the USAO for the Southern District of
Alabama had an approved CIRP and exercised that CIRP once prior to
Hurricane Katrina.

      According to the CMC, the U.S. Attorney gave the staff a few days off
to prepare for the storm before Katrina made landfall. The CMC stated that
a formal group was not dedicated to remain in the city and said that there
was no formal command post set up prior to the storm. The USAO, while it


U.S. Department of Justice
Office of the Inspector General                                        40
Evaluation and Inspections Division
had a seat at the Emergency Management Agency for Mobile County, only
coordinated with the agency by phone.

      After the storm, the USAO’s office was flooded and closed for
approximately a week, and the district court was non-operational as well.
Because the USAO was not closed very long, the headquarters staff did not
relocate to another location. When the USAO reopened, it made
accommodations for an AUSA from Mississippi for a brief period.

      When asked about the USAO’s activities immediately following the
hurricane, the CMC stated that there was little need to provide counsel as
there were few legal issues related directly to the storm itself. When asked
about lessons learned, the CMC stated the USAO needed a more systematic
procedure for communications. After the storm, the USAO established a
central number for employees (or others) to call to get information such as
when the office would reopen. The CMC also said that the USAO should
have been better able to stay in touch with staff during the storm and its
aftermath. Finally, the CMC indicated that the USAO needed to do more
planning for an alternate work site, since the office is in an area that is
prone to flooding.

      The CMC told us that the CMC training and CIRP exercises helped in
the USAO’s preparation for a critical incident. “More than anything else,
they provided awareness of the issues we would be dealing with. These are
the people [in other law enforcement and response agencies that] we are
going to be working with, and people will have already thought through
some of these [critical incident response] issues.” When asked if his
experience with Katrina would make the USAO more or less likely to
conduct additional CIRP exercises or other critical incident activities, the
CMC responded that the USAO would be more likely to do so, if only to test
the plan.

Southern District of Mississippi

      The USAO for the Southern District of Mississippi has a main office in
Jackson and branch offices in Gulfport and Hattiesburg. The USAO had an
approved CIRP and had exercised that CIRP three times prior to Hurricane
Katrina.

      According to the CMC, who is also the USAO’s First Assistant U.S.
Attorney, there was minimal storm damage to the Gulfport office because of
the anti-terrorist precautions that had been implemented, including
bulletproof glass that was boarded over hours before the storm made


U.S. Department of Justice
Office of the Inspector General                                        41
Evaluation and Inspections Division
landfall. Also, concrete security barricades prevented much of the storm
debris from hitting the building. The USAO’s offices were on the third floor,
which was above the flood waters. Although the USAO had intact office
space, little could be done because the power was out (80 percent of the
state was without power immediately after the hurricane). The Gulfport
office had no communications; although satellite phones were working, the
USAO did not have one. Cell phone communications were eventually
restored, but landlines were not functional until November 2005.

       The USAO’s main goal in the aftermath of the storm was to sustain
operations and work with the courts. According to the CMC, the Gulfport
office’s work resumed as quickly as possible in staff members’ homes and at
the Hattiesburg office (which generally is not staffed but has space
available). The Jackson office, which took on the bulk of the workload
following the storm, eventually housed a few New Orleans AUSAs. The U.S.
Attorney usually worked out of the Jackson office, and the team in Jackson
made sure that their presence was known. However, immediately after the
storm, even the Jackson office was not operational.

       The USAO worked with the state to authorize federal law enforcement
officials to assist state authorities. “We wanted to make sure that federal
[law enforcement] officers were deputized through the Governor’s emergency
order,” the CMC said. 71 According to the CMC, the process flowed very
smoothly.

       When asked about the problems that were encountered because of the
storm, the CMC stated that there were issues with the Emergency Support
Function personnel (ESF-13) that came from other jurisdictions and acted
as liaisons with the Department of Homeland Security. 72 According to the
CMC, the ESF-13 initially assigned quit 2 weeks after the hurricane, and
additional ESFs that arrived from other places were not really up to speed
on local matters.




       71   For federal officials to implement state law, each officer needed to be deputized.

         72 According to Mississippi’s State Comprehensive Emergency Management Plan,

“Emergency Support Function (ESF) #13, Public Safety and Security, integrates Mississippi
public safety and security capabilities and resources to support the full range of incident
management activities associated with potential or actual major incidents. The primary
purpose of the ESF is to establish procedures for the command, control, and coordination
of all state law enforcement personnel and equipment to support local law enforcement
agencies.” (http://www.msema.org/cemp/esf13.html)


U.S. Department of Justice
Office of the Inspector General                                                          42
Evaluation and Inspections Division
      When asked about additional lessons learned from dealing with
Katrina, the CMC responded that the USAO would seek to house the
jurisdiction’s critical incident response personnel at one unified incident
command center in the future. Because the Emergency Operations Center
(EOC) on the coast was not big enough to support all law enforcement
groups, the FBI and state and local police were at different locations during
and after Katrina. “We have a grant now to develop a new EOC where we
can have everybody at the same place; we have had a meeting of key law
enforcement to start the planning,” the CMC said.

        The CMC also stated that the USAO has surveyed its personnel about
their concerns and the staff discussed those issues. These topics included
what needed to be done in the 72 hours preceding the expected landfall of a
future storm, such as when they would begin shutting down the office and
the network server; how they would secure information, communications,
documents, and determine what would need to be moved. Other areas of
improvement included providing the staff with a laminated wallet card
displaying emergency contact information. Also, instructions on how to
shut down the network server have been added to the CIRP to allow that key
task to be completed even if the system administrator cannot make it to the
office.

       The CMC said that the USAO had already had a Continuity of
Operations Plan in place but had modified it to include possible relocation
to the Hattiesburg office. The Hattiesburg office is in the federal
courthouse, and the USAO believes it would be a good alternative location
for the Gulfport and Jackson staff. As part of ensuring that Hattiesburg
would be an effective alternative, the USAO set up high-speed network
access and made sure that the office has administrative and other supplies.
The CMC told us that the office will be fully capable whenever the USAO
needs to support staff there.

      When asked about the usefulness of the CMC training and CIRP
exercises, the CMC responded that they were a “huge” help. The CMC also
said that his district’s entire post-September 11 terrorism effort has helped
them develop an all-hazards approach, from providing computer backups to
a security deposit box. The CMC also said that the target hardening (of the
Gulfport office building) also had a direct impact on protecting the office’s
resources.




U.S. Department of Justice
Office of the Inspector General                                         43
Evaluation and Inspections Division
Hurricane Rita

      Hurricane Rita was the fourth most intense Atlantic hurricane ever
recorded and the most intense tropical cyclone ever observed in the Gulf of
Mexico. Rita caused $10 billion in damage on the U.S. Gulf Coast as it
made landfall on September 24, 2005, near the Texas-Louisiana border and
continued on through parts of southeast Texas. The storm surge caused
extensive damage along the Louisiana and extreme southeastern Texas
coasts and completely destroyed some coastal communities. Due to this
hurricane, the Western District of Louisiana and the Eastern District of
Texas activated their CIRPs.

Western District of Louisiana

     The USAO for the Western District of Louisiana’s offices are located in
Shreveport and Lafayette (where the CMC is located). The USAO had an
approved CIRP and had exercised that CIRP once prior to Hurricane Rita.

       Prior to the storm, the CMC stated that office personnel discussed
whether staff was to evacuate, but they did not. The Lake Charles location
is not staffed by the USAO, but two judges work out of it. The USAO
decided that the senior litigation staff would be available to coordinate and
communicate with the FBI command post and the CMC would be the first
person to represent the office. The USAO established a personnel rotation
among four AUSAs plus the U.S. Attorney so that at least one representative
from the USAO would be at the command center or in Lake Charles at all
times.

      The CMC stated that pre-storm discussions were held on a possible
curfew, what arrests would likely be made and by whom (state versus
federal), and what type of charges would need to be brought. According to
the CMC, most of these charges were state offenses. Discussions also took
place about where arrestees would be taken. When asked about the legal
assistance provided immediately after the hurricane, the CMC stated that
the USAO’s efforts consisted primarily of helping to coordinate activities
between other agencies.

       Following the storm, the FBI set up a mobile command center in Lake
Charles; representatives from 15 agencies were present, including the
USAO. The command center was law enforcement-oriented, while the state
Office of Emergency Preparedness (OEP) had its own command center for
emergency responders, energy companies, rescue and relief workers, and
charitable relief organizations. The OEP’s command center was used for


U.S. Department of Justice
Office of the Inspector General                                        44
Evaluation and Inspections Division
meetings during morning and evening shifts at which law enforcement
groups from outlying areas would coordinate with the emergency responders
and others. These groups met to establish operational relationships and
avoid conflicts. The USAO attended those meetings.

        According to the CMC, the Lake Charles personnel had no
communications capabilities for 3 days following the storm. Once the Lake
Charles-based personnel became available to resume their duties, they
assumed the command post rotations. A couple more weeks passed before
the Lake Charles courthouse reopened. In the interim, the USAO handled
all office activities at its Lafayette location.

       When asked about the benefits of the district’s prior CIRP activities,
the CMC stated that they were helpful. “Just by putting the plan together,
it forced all of us to think about it and address the issue [of critical incident
response]. Then by selecting team members and doing exercises, it forced
the team members to review the plan and to think about these things. It
becomes second nature and these [decisions and activities] would be the
type of things that may occur depending on the issue; it also forced some
people to think about what our role would be depending on the incident.”

Eastern District of Texas

      The USAO for the Eastern District of Texas has offices located in
Beaumont, Lufkin, Tyler, Texarkana, Sherman, and Marshall. The USAO
had an approved CIRP and had exercised that CIRP once prior to Hurricane
Rita.

       According to the CMC, as the hurricane approached, the County
Judge in charge of emergency management requested the USAO take the
lead in orchestrating evacuation efforts. As a result, several of the USAO’s
staff were assigned to the county Emergency Operations Center during the
pre-evacuation, evacuation, and recovery effort. The CMC said, “We have a
very good working relationship with the local law enforcement officials. We
worked hand in hand with the police and fire departments.” The U.S.
Attorney conducted conference calls with Senators Cornyn and Hutchinson
and White House staff to request emergency transportation.

      The CMC said the district became involved in a myriad of activities
before and after the storm that went beyond the scope of activity that a
USAO would normally perform. He stated that the USAO provided support
regarding the postal service (trying to get checks to people in the
community), the theft of federal property, and several state-related matters.


U.S. Department of Justice
Office of the Inspector General                                             45
Evaluation and Inspections Division
The office also worked with the National Guard, FEMA, and the Army Corps
of Engineers. In order to carry out the district’s duties and responsibilities,
the CMC said that the USAO needed generators to maintain power in its
office and had to acquire them directly from the Army Corps of Engineers.

      The CMC also stated that the USAO played a significant role in
organizing the evacuation of citizens through the Jefferson County Regional
Airport. The evacuation focused on homebound patients who were not able
to evacuate themselves. The local municipalities did not have enough
vehicles to evacuate everyone by ground transportation. In response, the
USAO acquired idle school buses and had the seats removed. The buses
were used to transport the homebound patients to the airport to be
evacuated by military aircraft.

      According to the CMC, the district adapted its use of the CIRP as it
responded to this incident. Staff used the plan’s list of hotel phone
numbers, put out media notices according to the plan’s guidance, and used
the plan for ordering additional phone lines. Based on lessons learned, the
USAO is now the emergency operations center for the next disaster. They
have installed a wireless internet, back-up generators, and they now have
extra phones on hand. The CMC added that when you are operating a
command center you are also going to need computers and other items.

       When asked if the CMC training and CIRP exercises helped in the
USAO’s preparation and response to the hurricane, the CMC said,
“Absolutely.” The CMC added that because continuity of operations is
critical, “We had already come up with a Continuity of Operations Plan,
which was developed in 2004. We had already decided who the employees
were going to check in with. When you lose [track of] 50 employees, you
need to know where they are; our employees know they need to check-in.”
The CMC said they created and utilized a spreadsheet with all the
information so the USAO would be able to quickly locate its personnel.

Hurricane Ivan

      Hurricane Ivan was the strongest hurricane of the 2004 Atlantic
hurricane season. Ivan made its U.S. landfall as a strong Category 3 storm
and caused an estimated $13 billion worth of damage. Because of this
hurricane, the Northern District of Florida activated its CIRP.

Northern District of Florida

       The USAO for the Northern District of Florida consists of four
divisions: Tallahassee (headquarters), Gainesville, Panama City, and

U.S. Department of Justice
Office of the Inspector General                                           46
Evaluation and Inspections Division
Pensacola. The USAO’s CIRP was approved just prior to the arrival of the
storm; thus, the USAO had not yet conducted a CIRP exercise.

       The CMC stated that prior to the storm, the U.S. Attorney had the
Pensacola staff shut down their systems and move their computers,
personal items, and important documents to internal office areas. Office
personnel were then permitted to take care of personal matters as Pensacola
is only a quarter of a mile from the water and the staff knew the city would
take “quite a beating.”

       The first floor of the USAO’s building flooded and major interstate
highways were closed due to bridge damage. According to the CMC, “You
could not move; there was no assurance the roads would be passable.” The
CMC also told us that there were no communications. While the office had
a phone tree, no phones – cellular or landline – worked. The United States
Marshals Service helped out by going to the homes of USAO personnel to
verify that they were unharmed.

      The CMC said that the state has an excellent emergency preparedness
system based in Tallahassee, including secure phones and building plans
and photographs of every office. However, the CMC said that there was no
coordination and everyone did everything on their own because
communication systems were inoperable.

       The office was closed for 2 weeks because there was no electricity.
The courts were also closed, and the local jail was severely damaged (1,300
inmates had been evacuated). According to the CMC, “It was not an issue of
how do we get work done. It was how do we get [water] to drink.” The CMC
also stated, “Local law enforcement were overwhelmed. Deputies from other
counties were brought in to assist local, state, and federal law enforcement
in preventing looting and anarchy.”

      Based on their experience with Hurricane Ivan and the results of the
subsequent CIRP exercise, 73 the USAO moved its alternative office locations
farther away [from their normal places of operations] because, he said,
experience had shown that “in some areas, you just had to leave.”

       When asked if the CMC training and CIRP exercises helped in the
USAO’s response to a second storm – Katrina – that struck the area a year
later, the CMC said yes.

       73All three of the district’s branch offices had coordinated an exercise conducted in
May 2005.


U.S. Department of Justice
Office of the Inspector General                                                       47
Evaluation and Inspections Division
                                APPENDIX II: SURVEY



A. SURVEY OF USAO CRISIS MANAGEMENT COORDINATORS ON CRITICAL
INCIDENT RESPONSE PLANNING

B. Background

1. What is your name?


2. In addition to being the CMC, what other responsibilities do you have?


3. What is your District?


4. When did you become the CMC?


5. Before becoming the CMC, did you have any prior crisis management or
critical incident planning/response experience?
     Yes
     No

6. If you became the CMC after January 1, 2003, who was your predecessor?




U.S. Department of Justice
Office of the Inspector General                                             48
Evaluation and Inspections Division
C. CIRP Training and Guidance

7. What CIRP training have you received? Check all that apply.


       Training or guidance on drafting a Critical Incident Response Plan
       Training on conducting an exercise (simulated or table-top)
       Training on drafting an after-action report
       Have not received training and none is scheduled
       Have not received training, but training is scheduled

8. If you have not received training and none is scheduled, do you know why?




9. If you received training, how was it obtained? (Enter FC for formal classroom,
RM for review of material, B for both, or O for other)


        Drafting a CIRP
        Conducting a critical incident exercise
        Drafting an after-action report

10. If you received training, when did you receive it? (Enter month and year)



 (1)   Drafting a CIRP
 (2)   Conducting a critical incident exercise
 (3)   Drafting an after-action evaluation
 (4)   Other


11. If you responded “Other” to question 10, please explain:




U.S. Department of Justice
Office of the Inspector General                                             49
Evaluation and Inspections Division
12. Did you attend the joint Anti-Terrorism Advisory Council Coordinators’ and
Crisis Management Coordinators’ Conference in 2004?
    Yes
    Yes, but only the CMC portion of the conference
    No

13. Did you attend the Crisis Management Coordinators’ Conference in 2005?
    Yes
    No

14. Did you find these training opportunities and conferences helpful in
understanding the role United States Attorney’s Offices would play in a crisis, in
relation to other federal agencies, as well as with state and local authorities?
    Yes
    No
    I attended neither conference, nor have I received any training

15. Do you believe more CMC conferences should be conducted?
    Yes, on an annual basis
    Yes, on a biannual basis
    Yes, on a triennial basis
    No

16. If you answered “No” to either question 14 or 15, please provide a brief
reason why.




17. Should other types of training be provided and, if so, what types of training
should be available?




U.S. Department of Justice
Office of the Inspector General                                             50
Evaluation and Inspections Division
D. CIRP Planning

18. Did you find the critical incident planning information on the Anti-Terrorism
Advisory Council’s website
useful?(http://10.173.2.12/usao/eousa/atac_irs/index.html)
    Yes
    No
    Have not visited the website for planning information

19. Did you find the model plan useful in updating your District’s Critical
Incident Response Plan?
    Yes
    No
    Have not used the sample plan

20. In formulating your District’s plan, did you consider unique local concerns
and/or vulnerabilities i.e., earthquakes, militias, etc? If there is a specific local
vulnerability that your plan addresses, please explain in question 60.
    Yes
    No
    I was not involved in formulating the District’s plan

21. After a CMC evaluator reviewed your District’s CIRP in mid-2004, did you, or
your predecessor, make changes to your District’s CIRP based on comments the
evaluator provided about your Plan?
    Yes
    No
    Don’t know

22. In completing the CIRP, it was supposed to contain several subcomponents
(checklists, CIR kit, etc). Has your District completed these items?
    Yes
    No




U.S. Department of Justice
Office of the Inspector General                                                 51
Evaluation and Inspections Division
E. CIRP Testing and Exercises

23. Did your District conduct a table-top or simulated exercise required by
EOUSA in 2004? If you answer “No,” skip to question 25.
    Yes
    No
    Don’t know

24. If your District conducted an exercise in 2004, was the required after-action
report provided to EOUSA?
    Yes
    No

25. In addition to the exercise required in 2004, has your District tested your
CIRP in any other exercises in 2005 and/or 2006 (simulated or table-top)?
    Yes
    No
    Don’t know

26. If you answered “No” to question 25, do you have an exercise scheduled in
CY 2006?
    Yes
    No

27. Since January 1, 2005, has your District participated in any other exercise,
such as one with the local FBI office or an exercise involving the activation of a
command center (i.e., an exercise to test preparation for responding to a critical
incident)?
    Yes
    No
    Don’t know

28. If you answered “Yes” to any question from 25 to 27, please provide the date
(s) for exercises you intend to conduct or have conducted, and the type of
exercise (simulated or table-top) that you intend to conduct or have conducted?




U.S. Department of Justice
Office of the Inspector General                                             52
Evaluation and Inspections Division
29. What did your District conclude from its most recent exercise? Check the
most applicable answer.
    The CIRP and the exercise did not prepare the Office for a potential critical
incident that might occur after the exercise
   The CIRP and the exercise prepared the District for incidents similar to those
covered by the simulation exercise
    The CIRP and the exercise prepared the District for a full range of critical
incidents which might occur
    Other

30. If you checked “Other” in response to question 29, please explain.




31. Did you complete an after-action report for any exercises your District
participated in since 2004 (re: questions 25 through 27)?
    Yes
    No
    Don’t know

32. If you replied “Yes” to question 31, did you provide a copy to EOUSA or CTS?
    Yes to EOUSA
    Yes to CTS
    Yes to both
    Neither
    Don’t know

33. Is your District reporting the time it spends on CIRP activities?
    Yes
    No
    Don’t know




U.S. Department of Justice
Office of the Inspector General                                               53
Evaluation and Inspections Division
34. To whom is the time spent on CIRP activities reported (check all that apply)?
    Office timekeeper
    EOUSA
    Reported on USA-Form 5 only
    Do not report CIRP activity
    Other
    Don’t know

35. If you checked “Other” in response to question 34, please explain.




F. CIRP Utilization

36. Have there been occasions when your District formally or informally used
elements of your CIRP, such as activating the CIRP team, using checklists, or
activating the telephone tree, without officially activating the CIRP?
    Yes
    No
    Don’t know

37. If you responded “Yes” to question 36, please describe the circumstances:




38. Without officially activating the CIRP, have there been occasions when your
District formally or informally used your CIRP as a guide or reference in
managing a crisis or scheduled event?
    Yes
    No




U.S. Department of Justice
Office of the Inspector General                                           54
Evaluation and Inspections Division
39. If you responded “Yes” to question 38, please describe the circumstances:




G. CIRP Activation

40. Do you know the specific circumstances under which a critical incident
would be declared and your District CIRP activated?
    Yes
    No

41. Has your District experienced a critical incident since January 1, 2004? If
your District did not experience a critical incident, mark “No” and skip to
question 48.
    Yes
    No
    Don’t know

42. If you responded “Yes” to question 41, who declared the
event/circumstances to be a critical incident?
    U.S. Attorney (or designee)
    FBI
    Other agency
    State/local authorities

43. Once the CIRP was activated, was an urgent report sent to EOUSA? Please
provide the date of the urgent report or indicate “NONE SENT.”




U.S. Department of Justice
Office of the Inspector General                                            55
Evaluation and Inspections Division
44. If you experienced a critical incident, was the incident one which allowed
your District to plan ahead (such as a trial or political convention)?
    Yes
    No
    Not applicable

45. If your District had a critical incident or incidents occur, what was the
incident (check all that apply)
    A threatened or perceived terrorist act
    An alert to the possible existence of a biological, chemical, or explosive threat
    A terrorism-related trial
    An unplanned demonstration or political convention
    A severe weather event
    An event which required closing down or relocating your office
    An event which impeded access to your paper or electronic files
    An event which impeded communication with federal judges
    Other

46. If you responded “Other” to question 45, please explain:




47. If your District experienced a critical incident, how did the new role played
by the Department of Homeland Security affect your District’s ability to
respond? Check one.
    Improved our ability to respond
    Had no effect on our ability to respond
    Worsened our ability to respond
    Not applicable




U.S. Department of Justice
Office of the Inspector General                                               56
Evaluation and Inspections Division
48. If a city or town in your District evacuated due to weather or other event, did
you activate your CIRP?
    Yes
    No
    Don’t know
    Not applicable

49. Is your CIRP available electronically to all District personnel who would be
involved in managing a critical incident?
    Yes
    No

H. CIRP Effectiveness and Lessons Learned

50. Does your plan enable your District to address issues critical to United
States Attorneys offices? Check all that apply.
  Communication among federal, state, and local authorities (including the
media)
    Legal services to federal agencies
    Safeguarding of staff and sensitive information (such as grand jury material)
   Address known local vulnerabilities (such as earthquakes, weather events,
militias, etc)
    District continuity of operations
    Provide for interoperability with other District security plans

51. Have you received after-action reports, lessons learned information, or
copies of revised CIRPs from CTS, the EOUSA, or other USAOs after an incident
occurred in another United States Attorneys Office?
    Yes
    No

52. Have you received after-action reports, lessons learned information, or
copies of revised CIRPs from CTS, EOUSA, or other USAOs after a simulation
exercise occurred in another United States Attorneys Office?
    Yes
    No


U.S. Department of Justice
Office of the Inspector General                                             57
Evaluation and Inspections Division
53. Have you received critical incident planning/response information from
other USAOs by other means (informal contact, telephone call, etc)?
    Yes
    No

54. If you responded “Yes” to question 53, please detail the information received.




55. Did you find this shared information (questions 51-53) relevant and helpful
for critical incident planning in your District?
    Yes
    No
    Not applicable (never received this information)

56. If you responded “Yes” to question 55, was this information incorporated
into your District’s CIRP?
    Yes
    No

57. If you made changes to your District’s CIRP, did you subsequently supply a
copy of the revised Plan to EOUSA?
    Yes to EOUSA
    Yes to CTS
    Yes to both
    Neither

I. Conclusion

58. Does the CIRP process need improvement?
    Yes
    No




U.S. Department of Justice
Office of the Inspector General                                            58
Evaluation and Inspections Division
59. If you responded “Yes” to question 58, how would you improve the CIRP
process?




60. Please use this space to comment on any of your answers in this survey:




U.S. Department of Justice
Office of the Inspector General                                               59
Evaluation and Inspections Division
                          APPENDIX III: EOUSA RESPONSE




U.S. Department of Justice
Office of the Inspector General                          60
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       61
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       62
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       63
Evaluation and Inspections Division
                            APPENDIX IV: NSD RESPONSE




U.S. Department of Justice
Office of the Inspector General                         64
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       65
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       66
Evaluation and Inspections Division
        APPENDIX V: OIG ANALYSIS OF EOUSA AND NSD RESPONSES


      On December 8, 2006, the Office of the Inspector General (OIG) sent
copies of the draft report to the Executive Office for United States Attorneys
(EOUSA) and the National Security Division (NSD) with a request for written
comments. 74 EOUSA and the NSD responded to us in memorandums dated
January 8 and January 9, 2007, respectively.

EOUSA and NSD Response

      Both components agreed with the seven OIG recommendations to improve
the USAOs’ critical incident response planning. Their responses stated that the
components would work with each other, as well as with United States
Attorneys’ Offices (USAO), to resolve and implement solutions to the OIG’s
findings.

RECOMMENDATIONS

       Recommendation 1: EOUSA and the Counterterrorism Section (CTS)
clarify each component’s Crisis Management Coordinator (CMC) Program
responsibilities.

      Summary of EOUSA and NSD Response. Both components agree with the
recommendation and will meet to develop a clear understanding and delineation
of each component’s respective responsibilities. Appropriate protocols are
expected to be in place by March 5, 2007.

      OIG Analysis. Recommendation 1 is Resolved – Open. The actions
planned by EOUSA and the NSD to delineate each component’s responsibilities
are responsive to our recommendation. In order to close this recommendation,
please provide a copy of the protocols by March 30, 2007.

      Recommendation 2: In accordance with guidance provided by EOUSA
and the CTS, the USAOs conduct exercises of their critical incident response
plans (CIRP).

       Summary of EOUSA and NSD Response. Both components agree with the
recommendation. By March 5, 2007, EOUSA will establish a protocol for
verifying exercise performance by the USAOs. The NSD believes that EOUSA
can best track the completion of exercises by the USAOs and ensure districts are

       74 During the course of this review, the Counterterrorism Section (CTS) became part of
the National Security Division.


U.S. Department of Justice
Office of the Inspector General                                                        67
Evaluation and Inspections Division
aware of the requirement to exercise their CIRPs. The NSD will assist EOUSA as
necessary. The NSD also will send a new tabletop exercise to all districts and
post the exercise on its Docushare intranet site within 30 days.

       OIG Analysis. Recommendation 2 is Resolved – Open. The proposed
actions of both components are responsive to our recommendation. In order to
close this recommendation, please provide a copy of the tabletop exercise and
validation protocols by March 30, 2007.

       Recommendation 3: The USAOs complete, retain, and forward copies of
after-action reports to EOUSA and the CTS.

      Summary of EOUSA and NSD Response. Both components agree with the
recommendation. EOUSA, with assistance from the NSD, will develop protocols
by March 5, 2007, for periodically checking to determine whether each USAO
has maintained, retained, and forwarded to EOUSA a copy of its after-action
reports. While the NSD recognizes it needs to be aware of the content of the
reports in order to pass on best practices to other districts and to assist with
corrective action if needed, it believes that all of the “official record” copies of the
plans and reports should be maintained in one place at EOUSA.

       OIG Analysis. Recommendation 3 is Resolved – Open. The proposed
actions of both components are responsive to our recommendation. The OIG
will defer to the decision of the components as to where any “official record”
copies will be maintained, provided that the NSD retains the content of the
completed after-action reports. In order to close this recommendation, please
provide a copy of the protocols for determining whether each USAO has
maintained, retained, and forwarded to EOUSA a copy of its after-action reports
by March 30, 2007.

    Recommendation 4: EOUSA and the CTS establish a system that alerts
EOUSA when USAOs do not:

       •   Complete required CIRP exercises, and

       •   Submit after-action reports for exercises and CIRP activations.

       Summary of EOUSA and NSD Response. Both components agree with the
recommendation. By March 5, 2007, EOUSA will establish a protocol for
identifying when a USAO does not complete a required CIRP exercise or submit
an after-action report; the NSD will work with EOUSA to develop such protocols.

     OIG Analysis. Recommendation 4 is Resolved – Open. The actions
planned by EOUSA and the NSD to establish a protocol to periodically notify


U.S. Department of Justice
Office of the Inspector General                                                  68
Evaluation and Inspections Division
EOUSA when USAOs do not complete required CIRP exercises is responsive to
our recommendation. In order to close this recommendation, please provide a
copy of the protocols by March 30, 2007.

        Recommendation 5: EOUSA ensure that performance measures to
monitor completion of CIRP exercises and after-action reports remain a part of
its triennial review process.

      Summary of EOUSA and NSD Response. Both components agree with the
recommendation. By March 5, 2007, EOUSA will take steps to ensure that the
performance measures used to monitor completion of CIRP exercises and after-
action reports remain a part of the Evaluation and Review Staff (EARS) review
process. The NSD will provide EOUSA with technical assistance as needed
regarding the content of the portion of the EARS review concerning the CMC
program.

      OIG Analysis. Recommendation 5 is Resolved – Open. The actions
planned by EOUSA and the NSD to ensure that performance measures remain a
part of the EARS review process are responsive to our recommendation. In
order to close this recommendation, please provide a description of the actions
taken by March 30, 2007.

      Recommendation 6: When vacancies occur in CMC positions (either
permanent or temporary), the USAOs appoint new CMCs as soon as practicable;
the USAOs also should notify EOUSA and the CTS immediately of any vacancies
and subsequent appointments.

      Summary of EOUSA and NSD Response. Both components agree with the
recommendation. EOUSA agrees that by March 5, 2007, it will remind the
USAOs of the importance of filling vacant CMC positions as soon as practicable
and of notifying EOUSA and the CTS of any vacancies and subsequent
appointments

      OIG Analysis. Recommendation 6 is Resolved – Open. The actions
planned by EOUSA to remind the USAOs of their responsibility to appoint CMCs
and to alert EOUSA and the CTS of any vacancies and appointments are
responsive to our recommendation. In order to close this recommendation,
please provide a copy of the notice sent to the USAOs by March 30, 2007.

      Recommendation 7: EOUSA and the CTS ensure that new CMCs receive
timely orientation and training.

     Summary of EOUSA and NSD Response. Both components agree with the
recommendation and by March 5, 2007, will meet regarding the compilation of


U.S. Department of Justice
Office of the Inspector General                                          69
Evaluation and Inspections Division
basic orientation materials that can be easily recreated and made available to
each new CMC as they enter into the CMC position. The NSD will also continue
to plan, in conjunction with the EOUSA National Advocacy Center, periodic
training conferences for all CMCs.

       OIG Analysis. Recommendation 7 is Resolved – Open. The actions
planned by EOUSA and the NSD regarding the compilation of basic orientation
materials for new CMCs are responsive to our recommendation. In order to
close this recommendation, please provide a copy of the orientation materials by
March 30, 2007, as well as a proposed schedule for CMC training conferences.




U.S. Department of Justice
Office of the Inspector General                                          70
Evaluation and Inspections Division
